No. 19-71

In the Supreme Court of the United States
________________________
FNU TANZIN, ET AL., PETITIONERS
v.
MUHAMMAD TANVIR, ET AL.
_____________
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

________________________
BRIEF FOR RESPONDENTS IN OPPOSITION
________________________
RAMZI KASSEM
Counsel of Record
NAZ AHMAD
CLEAR Project
Main Street Legal Services,
Inc.
City University of New
York School of Law
2 Court Square
Long Island City, NY 11101
(718) 340-4558
ramzi.kassem@law.cuny.edu

SHAYANA KADIDAL
DIALA SHAMAS
BAHER AZMY
Center for Constitutional
Rights
666 Broadway, 7th Floor
New York, NY 10012
JENNIFER R. COWAN
EROL GULAY
SANDY TOMASIK
WILLIAM C. MATTESSICH
Debevoise & Plimpton LLP
919 Third Avenue
New York, NY 10022

i

QUESTION PRESENTED
Whether the Religious Freedom Restoration Act
of 1993, 42 U.S.C. § 2000bb et seq., permits claims
seeking money damages against federal government
officials, agents, and employees sued in their individual capacities for violations of the law’s substantive protections of religious belief.

ii

PARTIES TO THE PROCEEDINGS
Petitioners were defendants in the district court
and appellees in the court of appeals. They are FNU
Tanzin, Sanya Garcia, John LNU, Francisco Artusa,
John C. Harley III, Steven LNU, Michael LNU, and
Gregg Grossoehmig, Special Agents of the Federal
Bureau of Investigation (FBI); Weysan Dun, Special
Agent in Charge, FBI; James C. Langenberg, Assistant Special Agent in Charge, FBI; and five John Doe
Special Agents, FBI.
Respondents are Muhammad Tanvir, Jameel Algibhah, and Naveed Shinwari, who were plaintiffs in
the district court and appellants in the court of appeals.1

Awais Sajjad was a plaintiff in the district court but did not
appear in the court of appeals. See App. 1a, 62a.

1

iii

TABLE OF CONTENTS
Page
Opinions Below......................................................... 1
Jurisdiction............................................................... 1
Constitutional and Statutory Provisions Involved . 1
Statement ................................................................. 2
A. The No Fly List.............................................. 3
B. Respondents’ Placement and Retention
on the No Fly List.......................................... 5
C. Procedural History ........................................ 8
Reasons for Denying the Petition .......................... 11
A. Review Is Unwarranted Because There
Is No Circuit Split and the Case Is in an
Interlocutory Posture .................................. 11
B. The Court of Appeals’ Decision Is
Correct and Consistent with This
Court’s Decisions ......................................... 16
Conclusion .............................................................. 32
Appendix A–Amended Complaint (Apr. 22, 2014) 1a

iv

TABLE OF AUTHORITIES
CASES
Ajaj v. United States, No. 14-cv-1245-JPGRJD, 2019 WL 3804232 (S.D. Ill. Aug 13,
2019) .................................................................. 16
Arar v. Ashcroft, 585 F.3d 559 (2d Cir. 2009) ....... 22
Ashcroft v. Iqbal, 556 U.S. 662 (2009) ............. 13, 26
Atlantic Cleaners & Dyers, Inc. v. United
States, 286 U.S. 427 (1932)......................... 24, 25
Bivens v. Six Unknown Named Agents of
Federal Bureau of Narcotics, 403 U.S. 388
(1981)............................................... 11, 26, 27, 28
Burwell v. Hobby Lobby Stores, Inc., 573 U.S.
682 (2014) .................................................... 17, 31
City of Boerne v. Flores, 521 U.S. 507 (1997) .. 28, 29
Corr. Servs. Corp. v. Malesko, 534 U.S. 61
(2001)................................................................. 28
Crawford-El v. Britton, 523 U.S. 574 (1998)......... 14
Crowder v. Lariva, No. 214CV00202JMSMJD,
2016 WL 4733539 (S.D. Ind. Sept. 12, 2016) ... 15
Ditullio v. Boehm, 662 F.3d 1091 (9th Cir.
2011) .................................................................. 21
El-Badrawi v. United States, No. 07-CV-1074,
2011 WL 13086946 (D. Conn. May 16,
2011) .................................................................. 25
Franklin v. Gwinnett County Public Schools,
503 U.S. 60 (1992)......................................passim
Hafer v. Melo, 502 U.S. 21 (1991) .......................... 28
Harlow v. Fitzgerald, 457 U.S. 800 (1982) ............ 13
Hunafa v. Murphy, 907 F.2d 46 (7th Cir. 1990).... 29
Ibrahim v. Dep’t of Homeland Sec., 62 F. Supp.
3d 909 (N.D. Cal. 2014)....................................... 4

v

Jama v. INS, 343 F. Supp. 2d 338 (D.N.J.
2004) .................................................................. 16
Kendall v. United States ex rel. Stokes, 37 U.S.
524 (1838) .......................................................... 21
Kentucky v. Graham, 473 U.S. 159 (1985) ............ 28
Liberty Oil Co. v. Condon Nat’l Bank, 260 U.S.
235 (1922) .......................................................... 31
Listecki v. Official Comm. of Unsecured
Creditors, 780 F.3d 731 (7th Cir. 2015) ........... 20
Mack v. Warden Loretto FCI, 839 F.3d 286 (3d
Cir. 2016)....................................................passim
McKenna v. Wright, 386 F.3d 432 (2d Cir.
2004) .................................................................. 13
Mitchell v. Forsyth, 472 U.S. 511 (1985) ......... 13, 14
Patel v. Bureau of Prisons, 125 F. Supp. 3d 44
(D.D.C. 2015)......................................... 15, 29, 30
Pearson v. Callahan, 555 U.S. 223 (2009)............. 13
Reich v. Cambridgeport Air. Sys., Inc., 26 F.3d
1187 (1st Cir. 1994)........................................... 21
Rendelman v. Rouse, 569 F.3d 182 (4th Cir.
2009) .................................................................. 25
Rezaq v. Fed. Bureau of Prisons, No. 13-CV990-MJR-SCW, 2016 WL 97763 (S.D. Ill.
Jan. 8, 2016) ...................................................... 15
Ryan v. Gonzales, 568 U.S. 57 (2013) .................... 19
Sabir v. Williams, No. 17-CV-749 (VAB), 2019
WL 4038331 (D. Conn. Aug. 27, 2019) ............. 16
Sherbert v. Verner, 374 U.S. 398 (1963) ............ 1, 31
Sossamon v. Texas, 563 U.S. 277 (2011) ........passim
Stewart v. Beach, 701 F.3d 1322 (10th Cir.
2012) .................................................................. 25
Sutton v. Providence St. Joseph Med. Ctr., 192
F.3d 826 (9th Cir. 1999).................................... 29
Washington v. Gonyea, 731 F.3d 143 (2d Cir.
2013) ........................................................... 24, 25

vi

Wisconsin v. Yoder, 406 U.S. 205 (1972) ................. 1
Ziglar v. Abbasi, 137 S. Ct. 1843 (2017).........passim
STATUTES
5 U.S.C. § 702 ......................................................... 19
15 U.S.C. § 797(b)(5) .............................................. 19
28 U.S.C. § 1254(1)................................................... 1
28 U.S.C. § 1915(b), (g)........................................... 12
33 U.S.C. § 2718 ..................................................... 18
42 U.S.C. § 1983 ..............................................passim
42 U.S.C. § 2000bb ................................................... 2
42 U.S.C. § 2000bb-1(c) ................................ 2, 21, 28
42 U.S.C. § 2000bb-2(1).................................... 17, 29
42 U.S.C. § 2000bb-2(a)............................................ 2
42 U.S.C. § 2000bb(b)............................................. 17
42 U.S.C. § 2000cc-3(g)........................................... 31
42 U.S.C. § 2000cc(a)(2)(B) .................................... 25
42 U.S.C. § 6395(e)(1)............................................. 19
49 U.S.C. § 114(h)(3)(A) ........................................... 5
Oil Pollution Act of 1990, 104 Stat. 484 ................ 17
Prison Litigation Reform Act, 42 U.S.C.
§ 1997e............................................................... 12
Sherman Anti-Trust Act, 26 Stat. 209 .................. 24
OTHER AUTHORITIES
Charles E. Clark & James William Moore, A
New Federal Civil Procedure—I. The
Background, 44 YALE L.J. 387, 391 (1935) ...... 31
Eric Lichtblau, After Orlando, Questions Over
Effectiveness of Terrorism Watch Lists, N.Y.
TIMES, June 22, 2016 .......................................... 4

vii

Walter Dellinger, Availability of Money Damages Under the Religious Freedom Restoration Act, 18 Op. O.L.C. 180, 182–83 (1994)...... 23
FED. R. APP. PROC. 35(e) ......................................... 10
H.R. REP. NO. 103-88 (1993) .................................. 20
H.R. REP. NO. 106-219 (1999) ................................ 21
S. REP. NO. 103-111 (1993)..................................... 20

1

OPINIONS BELOW
The amended opinion of the court of appeals
(App. 1a–44a)2 is reported at 894 F.3d 449 (2d Cir.
2018). The court of appeals’ order denying rehearing
en banc (App. 45a–61a) is reported at 915 F.3d 898
(2d Cir. 2019). The opinion of the district court (App.
62a–109a) is reported at 128 F. Supp. 3d 756
(S.D.N.Y. 2016).
JURISDICTION
The decision of the court of appeals was entered
on May 2, 2018, and amended on June 25, 2018. The
denial of rehearing en banc was entered on February
14, 2019. The jurisdiction of this Court is invoked
under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Religious Freedom Restoration Act of 1993,
as amended (RFRA), begins with a statement of legislative purpose:
The purposes of this chapter are—
(1) to restore the compelling interest test as
set forth in Sherbert v. Verner, 374 U.S. 398
(1963) and Wisconsin v. Yoder, 406 U.S. 205
(1972) and to guarantee its application in all
cases where free exercise of religion is substantially burdened; and

All citations to the Appendix (App.) refer to the Appendix to
the Petition for a Writ of Certiorari.
2

2

(2) to provide a claim or defense to persons
whose religious exercise is substantially burdened by government.
42 U.S.C. § 2000bb. RFRA’s substantive provision
states:
A person whose religious exercise has been
burdened in violation of this section may assert that violation as a claim or defense in a
judicial proceeding and obtain appropriate
relief against a government.
42 U.S.C. § 2000bb-1(c). RFRA’s definitions section
provides that “the term ‘government’ includes a
branch, department, agency, instrumentality, and
official (or other person acting under color of law) of
the United States . . . .” 42 U.S.C. § 2000bb-2(a).
STATEMENT
This case presents none of the factors warranting
this Court’s review. There is no circuit split requiring
resolution, as the two circuit courts that have
weighed in on the question presented are in accord.
The case is also in an interlocutory posture: the court
of appeals remanded for adjudication of the individual federal officials’ qualified immunity defense,
which had been raised before the district court but
was not ruled upon. And the case was correctly decided below, consistent with this Court’s decisions.
Petitioners’ proffered reasons for certiorari are exaggerated and neither outweigh these factors nor justify a departure from the considerations governing certiorari.

3

Respondents filed suit to challenge the Federal
Bureau of Investigation’s (FBI) unlawful abuse of the
No Fly List (also referred to as the List) to coerce
law-abiding American Muslims into spying on their
religious communities. Respondents Muhammad
Tanvir, Jameel Algibhah, and Naveed Shinwari were
either placed on the List and told they could only be
removed if they served as government spies in their
religious communities, or were asked to spy and,
when they refused, found themselves on the List.
Each Respondent is either a citizen or a lawful permanent resident of the United States, and each is a
practicing Muslim. Respondents brought suit against
FBI agents in their individual capacities under
RFRA, seeking monetary damages as relief. While
the district court action was pending, the government notified all Respondents that they were no
longer on the No Fly List, rendering moot Respondents’ claims for injunctive and declaratory relief
against the official capacity defendants and leaving
only the damages part of the action against the individual capacity defendants as a live controversy.
Years later, the court of appeals correctly concluded
that RFRA authorizes monetary damages against
federal government employees sued in their individual capacities.
A. The No Fly List
1. The No Fly List is a watchlist created and
maintained by the government’s Terrorist Screening
Center (TSC) of people who are prohibited from
boarding aircraft for flights that originate from, terminate in, or pass over the United States. App. 5a–
6a. Since 2009, the list has grown from roughly three
thousand names to in excess of eighty thousand. See

4

Appendix to Brief for Respondents in Opposition
(App. Opp’n) 17a (Am. Compl. ¶ 47); Eric Lichtblau,
After Orlando, Questions Over Effectiveness of Terrorism Watch Lists, N.Y. TIMES, June 22, 2016.3
The FBI is the principal agency that administers
the TSC. App. 5a. The TSC, in turn, develops and
maintains the Terrorist Screening Database (TSDB),
the government’s repository of information about all
individuals who are supposedly known to be or reasonably suspected of being involved in “terrorist activity.” Id. The No Fly List, a subset of the TSDB, is
among the watchlists administered by the TSC. Id.
The Department of Homeland Security (DHS)
administers the limited redress procedure for individuals who contest their placement on the No Fly
List. App. Opp’n 10a (Am. Compl. ¶ 21).
2. While the TSC maintains and distributes the
No Fly List, it does not, on its own, generate the
names on the List. Rather, it relies on “nominations”
from agencies with investigative functions—
primarily, the FBI. Id. at 15a (Am. Compl. ¶ 41). Individual agents nominate people to these lists.4 App.
6a; see also Ibrahim v. Dep’t of Homeland Sec., 62 F.
Supp. 3d 909, 916 (N.D. Cal. 2014) (describing process by which an FBI special agent nominated Dr.
Rahinah Ibrahim to various federal watchlists). Although the TSC is expected to review each nomination to ensure that the derogatory information satisfies the No Fly List’s already thin placement criteria,
Available at http:// www.nytimes.com/ 2016/06/23/us/ politics/after-orlando-questions-over-terrorism-watchlists.html?_r=2.
4 Contrary to Petitioners’ assertions, Pet. 4, Respondents have
not conceded that individual agents play no role in the composition of the No Fly List or any other watchlist maintained by the
TSC.
3

5

in practice the TSC rarely rejects any of the names
that FBI agents nominate to the No Fly List: more
than 99 percent of nominees were placed on the
watchlists for which they were nominated. App.
Opp’n 17a (Am. Compl. ¶ 47).
Notwithstanding the onerous burden that placement on the No Fly List imposes on an individual’s
ability to travel domestically and abroad, the standard for inclusion on the List is opaque. The relevant
statute requires that the individual “be a threat to
civil aviation or national security.” 49 U.S.C.
§ 114(h)(3)(A). The government’s court filings in other cases that have challenged placement on the No
Fly List have not elucidated the standard much, disclosing only that the List is reserved for “known or
suspected terrorist[s]” who “pose a threat of committing a terrorist act with respect to an aircraft.” App.
Opp’n 15a (Am. Compl. ¶ 42).
B. Respondents’ Placement and Retention
on the No Fly List
1. The individual agents who have petitioned
for certiorari abused their broad, discretionary power
to place or maintain people on the No Fly List and
through those actions violated Respondents’ rights
under RFRA. While the details of each Respondent’s
experiences with placement and retention on the No
Fly List are different, the broad contours are strikingly similar. Each was born into the Muslim faith
abroad, where at least some of their family remains.
App. 3a. Each immigrated legally to the United
States relatively early in life, and each had flown on
commercial aircraft many times without incident.
None poses, has ever posed, or has ever been accused
of posing, a threat to aviation security. See, e.g., App.

6

Opp’n 23a, 34a, 37a, 47a, 55a (Am. Compl. ¶¶ 68,
108, 118, 145, 166).
Nonetheless, each Respondent found himself on
the No Fly List. Throughout most of the proceedings
before the district court, the government refused to
even confirm that Respondents were on the No Fly
List, inform them of the purported basis for their
placement, or give them a meaningful opportunity to
refute their designations. See id. at 36a, 40a–41a,
55a–56a (Am. Compl. ¶¶ 114, 128, 168); App. 75a.
They all were prohibited from flying, sometimes
when they were headed to visit loved ones or to start
a new job, or on their way home from a trip abroad,
stranding them overseas. App. 10a; App. Opp’n 6a–
8a (Am. Compl. ¶¶ 14–17).
2. Petitioners, FBI special agents, approached
Respondents to pressure them to become sources of
general information about their own Muslim communities. Since 2001, FBI recruitment of informants
has significantly expanded, and considerable pressure exists within the agency to cultivate such resources, irrespective of the impact these efforts have
on individuals like Respondents and their communities. See id. at 12a–13a (Am. Compl. ¶¶ 36–37). None
of Respondents, their friends, or families, were suspected of involvement in criminal activity. Quite the
opposite: by all appearances, the agents sought to
force Respondents to serve as community spies simply because they were Muslims with access to a faith
community under suspicion. See id. at 24a, 37a–38a,
48a, 51a–53a (Am. Compl. ¶¶ 70, 120–22, 148, 156–
61).5
Petitioners incorrectly assert for the first time that Respondents alleged that the individual FBI agents recruited them to
serve as informants in “terrorism investigations.” Pet. 4. Re-

5

7

3. When initially approached, each Respondent
answered the agents’ specific questions truthfully,
but none wanted to serve as an informant on his
Muslim community, in part because to do so violated
his religious beliefs. App. 3a (opinion of the court of
appeals). Rather than accepting that refusal, the FBI
agents persisted—in some instances threatening individual Respondents with deportation and arrest
and in other instances offering financial incentives
and assistance with family members’ immigration to
the United States. Id.; App. Opp’n 25a–27a, 38a, 51a,
53a (Am. Compl. ¶¶ 74–79, 121, 156, 161). In each
case, the agents relied upon what they assumed
would be the irresistible coercion of the No Fly List—
causing each Respondent to be placed on the List and
then either threatening to keep him on the List for
refusing to accede to the FBI’s demands, or offering
the incentive of being removed from the List in exchange for services as an FBI informant. See, e.g., id.
at 30a, 39a, 152a (Am. Compl. ¶¶ 90, 124, 158). To
take one example, FBI agents Artusa and John Doe
5, on an unannounced visit to Mr. Algibhah, told him
that his efforts to seek congressional assistance to
secure removal from the List would be futile given
the FBI’s control over his fate: “Congressmen can’t
do shit for you; we’re the only ones who can take you
off the list.” Id. at 42a–43a (Am. Compl. ¶ 131).
Petitioners “forced [Respondents] into an impermissible choice between, on the one hand, obeying
their sincerely held religious beliefs and being subjected to the punishment of placement or retention
on the No Fly List, or, on the other hand, violating
their sincerely held religious beliefs in order to avoid
spondents never so alleged and, indeed, nothing in the record
below supports this assertion in the Petition.

8

being placed on the No Fly List or to secure removal
from the No Fly List.” App. 4a (opinion of the court of
appeals). Each Respondent alleged that this dilemma
placed a substantial burden on his exercise of religion and that the individual Petitioners knew or
should have known this.6 App. Opp’n 28a, 38a–39a,
55a (Am. Compl. ¶ 84, 122, 166). Additionally,
placement on the No Fly List resulted in concrete
harms for Respondents, preventing them from visiting family members in the United States and overseas, “caus[ing] them to lose money they had paid for
plane tickets, and hamper[ing] [Respondents’] ability
to travel for work,” all of which resulted in “emotional distress, reputational harm, and economic loss.”
App. 4a.
C. Procedural History
1. After pursuing and exhausting the limited
administrative redress process then available
through DHS for individuals who believed they were
on the No Fly List, Respondents filed suit against
Petitioners in their official capacities, seeking injunctive and declaratory relief, and in their individual
capacities, seeking compensatory and punitive damages. App. 11a (opinion of the court of appeals).
In June 2015, a mere four days before oral argument on the government’s motions to dismiss the
official capacity and individual capacity claims, DHS,
one of the government defendants, informed RePetitioners nonetheless quote Second Circuit Judge Dennis
Jacobs’ dissent from the denial of rehearing en banc to claim
ignorance of the burden on Respondents’ religious beliefs. Pet.
25. The record below indicates otherwise and, at the very least,
this is a contested issue of fact ripe for remand and resolution
before the district court in the first instance.

6

9

spondents that the government “knows of no reason
why they would be unable to fly.” Id. at 12a. Respondents then agreed to stay the official capacity
claims, and ultimately to dismiss them after confirming each Respondent was able to board a flight. Id.
The district court subsequently held, in pertinent
part, that RFRA does not permit actions for money
damages against federal officers sued in their individual capacities. Id. at 13a. Respondents appealed
that ruling. Id. at 14a.
2. On appeal, a three-judge panel of the Second
Circuit, in a unanimous decision, agreed with Respondents and reversed the district court’s ruling,
holding that RFRA permits actions seeking monetary
damages against federal government employees sued
in their individual capacities. Id. at 32a–33a.7
In analyzing RFRA, the court of appeals held
that the “plain terms” of the statute’s definition of
“government” authorized individual capacity suits
against federal officers. Id. at 19a. The court also
noted that the statute’s use of language comparable
to that of the Civil Rights Act of 1871, 42 U.S.C.
§ 1983, further indicated that Congress “intend[ed]
to adopt not merely” the phrasing of Section 1983,
“but the judicial construction of that phrase” as well.
Id. at 22a (citations omitted).
The court of appeals then turned to the question
whether RFRA’s use of the term “appropriate relief”
includes money damages. Noting that RFRA does not
define “appropriate relief,” the Second Circuit resorted to canons of statutory interpretation. Id. at 24a.
Citing the “venerable canon of construction that
The Second Circuit decision aligns with the Third Circuit’s
earlier ruling in Mack v. Warden Loretto FCI, 839 F.3d 286 (3d
Cir. 2016). The government sought neither rehearing nor review of the Third Circuit’s decision before that court or this one.

7

10

Congress is presumed to legislate with familiarity of
the legal backdrop for its legislation,” the court of
appeals recognized that the Supreme Court had decided Franklin v. Gwinnett County Public Schools,
503 U.S. 60 (1992), a year prior to the passage of
RFRA. Id. at 24a–25a. Applying the Franklin presumption that all appropriate remedies are available
unless Congress expressly indicates otherwise, the
Second Circuit held that money damages are available under RFRA in individual capacity suits. Id.
The court of appeals rejected Petitioners’ arguments to the contrary. Id. at 26a–42a. In particular,
the court of appeals explained why its decision was
consistent with its own precedent and that of other
circuits interpreting RFRA’s sister statute, the Religious Land Use and Institutionalized Persons Act
(RLUIPA), 42 U.S.C. § 2000cc et seq., which applies
to the states, and with this Court’s decision in Sossamon v. Texas, 563 U.S. 277 (2011), which held that
monetary damages are not available in actions
against state employees sued in their official capacities. Id. at 26a–28a.
3. After first seeking an extension of time to
consider whether to file a petition for rehearing en
banc, see Defs.’-Appellees’ Mot. for Extension of Time
to File Pet. for Reh’g at 1, Tanvir v. Tanzin, 894 F.3d
449 (2d Cir. 2018) (No. 16-1176), ECF No. 112-2, Petitioners ultimately sought rehearing en banc (no
panel rehearing was requested). The court of appeals
did not order a response to the en banc petition and
accordingly, by rule, Respondents did not submit
one. See FED. R. APP. PROC. 35(e).
4. In a decision issued on February 14, 2019, a
majority of the ten judges in the Second Circuit en
banc pool voted to deny rehearing. App. 45a–50a.
Chief Judge Katzmann and Judge Pooler issued an

11

opinion concurring in the denial of rehearing en
banc.8 Judges Jacobs and Cabranes authored separate dissenting opinions. Both judges, and Judge Sullivan, signed both dissenting opinions. Id. at 51a–
61a. No other judges signed the dissenting opinions.
Id. Chief Judge Katzmann and Judge Pooler took
issue with Judges Jacobs’ and Cabranes’ response to
the panel opinion, clarifying that any concerns relating to Bivens v. Six Unknown Named Agents of Federal Bureau of Narcotics, 403 U.S. 388 (1981), and its
progeny are inapposite when considering the interpretation of remedies available under a statute. Id.
at 48a–50a (describing the dissents’ Bivens-related
concerns as a “red herring”).
After two extensions of time—the first to decide
“whether to file a petition for writ of certiorari,”
[First] Application to Extend Time at 4, Tanzin v.
Tanvir, No. 19-71 (U.S. May 3, 2019), No. 18A1135—
the government petitioned this Court for a writ of
certiorari on July 12, 2019.
REASONS FOR DENYING THE PETITION
A. Review Is Unwarranted Because There
Is No Circuit Split and the Case Is in an
Interlocutory Posture
This Court ordinarily does not review cases in an
interlocutory posture absent a circuit split or some
exceptional circumstance that counsels in favor of
immediate review. Petitioners concede “there is not a
Chief Judge Katzmann and Judge Pooler were both members
of the panel that decided the case. Judge Lynch, a member of
the panel that decided the case, did not report his views on the
petition for rehearing en banc owing to his status as a senior
judge, per Second Circuit protocol. App. 47a.
8

12

circuit conflict” and that “the posture here is interlocutory.” Pet. 23. Given that the individual capacity
defendants asserted a defense of qualified immunity
below, which was not reached by the district court,
the court of appeals remanded the case for further
consideration of that defense. App. 43a–44a.9
1. Petitioners claim that this Court should
nonetheless decide the legal question whether RFRA
provides for money damages immediately, citing to
the potential burden posed by discovery, and the notion that RFRA claims, owing to their basis in subjective, non-rational religious belief, are amorphous
by nature and could result in a flood of litigation in
the lower courts. Pet. 24–25.10
Both objections can be appropriately addressed
by the district court on remand. Qualified immunity
offers a defense upon which Petitioners may well
prevail on remand, and is tailor-made to address the
concerns expressed in the Petition about exposure to
discovery and any attendant chilling effect on federal
Despite requesting and receiving supplemental briefing on
qualified immunity after oral argument, the court of appeals
held the issue was more appropriate for initial consideration by
the district court. App. 43a–44a.
10 Curiously, these objections would seemingly apply just as
readily to claims for injunctive relief under RFRA, which no one
argues is unavailable. Respondents sought removal from the
No-Fly List, and surely discovery into the motives for placing or
maintaining them on the List would implicate the same concerns. Likewise, to whatever extent federal prisoners might
plausibly claim a denial of religious accommodations unduly
burdens their religious practice, Pet. 25, RFRA would permit
them to seek injunctive relief—although, as with damages
claims, such claims would be subject to the barriers to suit under the Prison Litigation Reform Act, 42 U.S.C. § 1997e, including the administrative exhaustion requirement. See 42 U.S.C.
§ 1997e(a), (e); 28 U.S.C. § 1915(b), (g).
9

13

employees’ performance of their duties. Id. In fact,
Petitioners argued in the district court that qualified
immunity is a defense not just from liability but also
from suit—designed to “quickly terminate[]” claims
prior to discovery,11 in order to allow “all but the
plainly incompetent or those who knowingly violate
the law” to “act without fear of harassing litigation.”
Mem. of Law in Support of Indiv. Agent Defs.’ Mot.
to Dismiss (Mot. to Dismiss) at 36–37, Tanvir v.
Holder, 128 F. Supp. 3d 756 (S.D.N.Y. 2015) (No. 13CV-6951), ECF No. 39.
The Court has repeatedly highlighted the broad
protection that the qualified immunity defense provides not only from having to stand trial, but also
from having to bear the burdens associated with litigation, including pretrial discovery. See, e.g., Ashcroft v. Iqbal, 556 U.S. 662, 685–86 (2009); Pearson v.
Callahan, 555 U.S. 223, 231–32 (2009). The Court
has also emphasized that trial courts should resolve
the issue at the earliest possible stage in litigation,
and before discovery if possible. Pearson, 555 U.S. at
232. If this case were remanded to the district court,
Petitioners’ qualified immunity defense could be
“successfully asserted in a Rule 12(b)(6) motion,” and
decided on the pleadings, to the extent it turned on a
question of law, where “the complaint itself establishe[s] the circumstances required as a predicate to
a finding of qualified immunity.” McKenna v. Wright,
386 F.3d 432, 435 (2d Cir. 2004) (internal quotation
marks omitted). In the district court, Petitioners presented three qualified immunity arguments in their
Motion to Dismiss, stressing that each could be deSee, e.g., Mitchell v. Forsyth, 472 U.S. 511, 526–27 (1985);
Harlow v. Fitzgerald, 457 U.S. 800, 817–18 (1982); Defs.’Appellees’ Supp. Letter Br. at 3–4, Tanvir v. Tanzin, 894 F.3d
449 (2d Cir. 2018) (No. 16-1176), ECF No. 90.
11

14

cided as a matter of law. Mot. to Dismiss at 57–61 &
61 n.23. None have been addressed by the lower
courts. If the district court denies qualified immunity, the denial would be subject to interlocutory appeal—possibly to this Court, if necessary—under the
collateral order doctrine, further shielding Petitioners from any discovery burden. Mitchell, 472 U.S. at
528–29.12
As for the notion that damages claims grounded
in religious belief are inherently amorphous, Petitioners argued below that if official defendants were
unaware that their actions burdened plaintiffs’ particular religious beliefs, those officials should be
shielded by qualified immunity. Mot. to Dismiss at
58–60 (arguing that because no court has held “requesting that an individual inform on his . . . faith
community[] places a substantial burden on religious
exercise,” the “contours of the alleged religious burden are not sufficiently clear” to permit liability); id.
at 60–61 (arguing failure to directly notify FBI
agents that informing on religious community violated religious beliefs means agents “could not” have
been aware they were violating “a right under
RFRA”); see also Defs.’-Appellees’ Supp. Letter Br.,
supra note 11, at 2 (same). In sum, Petitioners themselves have argued that qualified immunity is well
suited to address any chilling effect on the function-

Even where discovery is granted to assess a qualified immunity defense, such discovery is typically limited in scope, and
would not result in the harms predicted by Petitioners. See, e.g.,
Crawford-El v. Britton, 523 U.S. 574, 598–99 (1998) (in assessing qualified immunity, district court has “broad discretion
to tailor discovery narrowly and to dictate the sequence of discovery,” and may “limit the time, place, and manner of discovery, or even bar discovery altogether on certain subjects”).

12

15

ing of government writ large cast by the burdens of
suit on these individual defendants.
2. If the federal courts were divided on the legal
question presented here, interlocutory intervention
by this Court might be less extraordinary. However,
as Petitioners acknowledge, there is no circuit split
on whether RFRA allows for money damages against
federal officials sued in their individual capacities.13
Pet. 23. The only other circuit court to address the
issue also unanimously ruled that it does. See Mack
v. Warden Loretto FCI, 839 F.3d 286 (3d Cir. 2016).14
Despite the fact that Mack was decided three
years ago and Tanvir nearly two years ago, there has
not been a flood of RFRA damages suits from prisoners and others, notwithstanding the dire predictions
in the Petition.15 The government itself, for all its
Petitioners attempt to make hay of the two dissents from the
Second Circuit’s denial of rehearing en banc. But since the Second Circuit did not grant the government’s petition for rehearing en banc nor even call for a response to it, Respondents did
not have the opportunity to brief the issues to the dissenting
judges. When this Court decides issues presented by a genuine
circuit split, it enjoys the benefit of comparing the reasoning of
precedential opinions decided after full briefing and argument.
That situation is not presented here. Accepting Petitioners’
invitation to treat these dissents as the functional equivalent of
contrary circuit precedent would only serve to encourage the
widespread filing of petitions for rehearing en banc in otherwise-uncontroversial cases in the hope of generating similar
dissents, and the filing of petitions for certiorari when there is a
similar dissent below.
14 Judge Roth’s partial concurrence agreed with the panel opinion regarding the question presented here. See 839 F.3d at 308.
15 Prior to Mack, four district courts had reached the same conclusion. See Crowder v. Lariva, No. 214CV00202JMSMJD, 2016
WL 4733539, at *7–8 (S.D. Ind. Sept. 12, 2016); Rezaq v. Fed.
Bureau of Prisons, No. 13-CV-990-MJR-SCW, 2016 WL 97763,
at *9 (S.D. Ill. Jan. 8, 2016); Patel v. Bureau of Prisons, 125 F.
13

16

protestations about the separation of powers concerns supposedly raised by this case, hesitated at
great length prior to filing this Petition, as noted
above, and chose not to petition for certiorari at all
when the Third Circuit issued its Mack decision in
2016. The sky has not come crashing down in the
three years since that decision, belying Petitioners’
arguments in this case.
Finally, Petitioners’ claim that the question presented “recurs with some frequency,” Pet. 23, is further undercut by the reality that there have been
only two court of appeals opinions deciding this issue
since RFRA was enacted 26 years ago. That indicates
the question is not so pressing that this Court need
take it up on interlocutory appeal prior to consideration of the qualified immunity defense, and in the
absence of a circuit split.
B. The Court of Appeals’ Decision Is Correct and Consistent with This Court’s
Decisions
A further reason to deny certiorari is that the
court of appeals’ decision does not conflict with this
Court’s decisions and correctly interprets and applies
RFRA’s statutory text.
Supp. 3d 44, 49–54 (D.D.C. 2015) (Moss, J.); Jama v. INS, 343
F. Supp. 2d 338, 375–76 (D.N.J. 2004). Subsequent to Mack and
the court of appeals’ decision in this case, one district court
followed those rulings to hold that RFRA allows plaintiffs to
seek money damages against officials sued in their individual
capacities, Sabir v. Williams, No. 17-CV-749 (VAB), 2019 WL
4038331, at *9 (D. Conn. Aug. 27, 2019), while a district court
in Illinois declined to do so, Ajaj v. United States, No. 14-cv1245-JPG-RJD, 2019 WL 3804232, at *1 (S.D. Ill. Aug 13,
2019). In each case, the government could have, but so far has
not, appealed.

17

1. The court of appeals correctly found that
RFRA provides for damages against federal officials
sued in their individual capacities, in a ruling consistent with the statute’s text, purpose, and history.
App. 17a–25a, 35a–42a. The court of appeals began
its analysis “with the language of the statute.” Id. at
16a (internal quotation marks omitted). In interpreting RFRA, the court also was mindful that, when
enacting the statute, Congress “went beyond merely
restoring the compelling interest test,” id. at 37a, in
order to “‘provide a claim or defense to persons whose
religious exercise is substantially burdened by government,’” id. (quoting 42 U.S.C. § 2000bb(b)), as
well as “‘very broad protections for religious liberty,’”
id. at 21a (quoting Burwell v. Hobby Lobby Stores,
Inc., 573 U.S. 682, 693 (2014)). Rarely does Congress
speak to a statute’s purpose so plainly. Congress did
so here because it intended to regulate both federal
and state officials—on the model of 42 U.S.C. § 1983,
which allows both injunctive relief and damages. See
id. at 21a–22a, 32a n.12 (noting that similarities between RFRA and Section 1983 reflect Congress’s intent for “courts to borrow concepts from § 1983 when
construing RFRA” (quoting Mack, 839 F.3d at 302)).
The court of appeals found that RFRA’s plain
language—which authorizes “appropriate relief
against a government,” with “government” defined to
encompass an “official (or other person acting under
color of law) of the United States,” 42 U.S.C.
§ 2000bb-2(1)—“provides a clear answer” to whether
the statute permits suits against individual officers
in their personal capacity. App. 18a (internal quotation marks omitted).16
Congress knows how to legislate to exempt officers from individual capacity liability. The Oil Pollution Act of 1990 (OPA),

16

18

2. As to whether damages were permitted in
the individual capacity suits authorized by RFRA,
Congress chose not to define the term “appropriate
relief,” opting instead to use a flexible, contextdependent term that made damages available in appropriate circumstances but not in others, such as
against sovereign defendants. Faced with a patchwork of potential defendants (e.g., federal and state
governments and officials and persons acting under
color of federal and state law) and a host of doctrinal
limitations (e.g., federal and state sovereign immunity, Congress’s limited authority under its commerce
and spending powers to regulate state government
officials), the term “appropriate relief” represented
an elegant solution by Congress to balance claimants’ entitlement to relief with the jurisprudential
and policy considerations that arise when regulating
government actors.
Given the calculated ambiguity of the term “appropriate relief,” the panel appropriately looked to
canons of statutory interpretation. App. 23a–24a.
This Court’s ruling in Franklin provides that when
courts are faced with “the question of what remedies
are available under a statute that provides a private
right of action,” they must “presume the availability
of all appropriate remedies”—including damages—
“unless Congress has expressly indicated other-

104 Stat. 484, specifically exempts federal officers and employees from individual capacity liability by providing that “nothing
in this Act shall be construed to authorize or create a cause of
action against a [f]ederal officer or employee in the officer’s or
employee’s personal or individual capacity . . . .” 33 U.S.C.
§ 2718. RFRA, passed just three years after OPA, does not contain a similar provision.

19

wise.”17 503 U.S. at 66, 76. The Franklin presumption is based on a long-standing rule with “deep roots
in our jurisprudence,” that “[w]here legal rights have
been invaded, and a federal statute provides for a
general right to sue for such invasion, federal courts
may use any available remedy to make good the
wrong done.” Id. at 66 (internal quotation marks
omitted).
Applying Franklin, the Second Circuit found no
“‘express[ ] indicat[ion]’” that RFRA proscribes the
recovery of money damages. App. 25a (alterations in
original) (quoting Franklin, 503 U.S. at 66). Applying
the canon of construction “that Congress is presumed
to legislate with familiarity of the legal backdrop for
its legislation,” the Second Circuit also found that
“Congress enacted RFRA one year after the Supreme
Court decided Franklin, and . . . used the very same
‘appropriate relief’ language in RFRA that was discussed in Franklin.” Id. at 24a–25a (internal quotation marks omitted); see also Ryan v. Gonzales, 568
U.S. 57, 66 (2013) (“We normally assume that, when
Congress enacts statutes, it is aware of relevant judicial precedent.” (internal quotation marks omitted)).
Relying on these fundamental canons of construction, the Second Circuit correctly concluded that
“RFRA permits the recovery of money damages from

When Congress intends to exclude damages from the remedies available to statutory claimants, it does so clearly. See 5
U.S.C. § 702 (providing that, under the Administrative Procedure Act, “relief other than money damages” is available
against federal agencies to remedy “legal wrong”); 15 U.S.C.
§ 797(b)(5) (providing cause of action for “appropriate relief,”
but specifying that “[n]othing in this paragraph shall authorize
any person to recover damages”); 42 U.S.C. § 6395(e)(1) (similar).
17

20

federal officials sued in their individual capacities.”
App. 30a.18
Petitioners argue that Franklin is inapposite because the Franklin Court “construed an implied
cause of action, not an express one.” Pet. 23. The
Franklin presumption need not be—and, indeed, has
not been—confined only to cases interpreting remedies available under an implied private right of action. To the contrary, and as the Second Circuit
ruled, the “logical inference, in our view, runs the
other way: one would expect a court to be more cautious about expanding the scope of remedies available for a private right of action that is not explicitly
provided by Congress, than in determining what
remedies are available for a right of action that Congress has expressly created.” App. 33a.19 This holds
An opaque statement in the Senate Report for RFRA—that
“[t]o be absolutely clear, the act does not expand, contract or
alter the ability of a claimant to obtain relief in a manner consistent with the Supreme Court’s free exercise jurisprudence
under the compelling governmental interest test prior to
Smith,” S. REP. NO. 103-111, at 12 (1993)—is not the “express[ ]
indicat[ion]” Petitioners claim it is. Pet. 19. That statement,
appearing in a section titled “No Relevance to the Issue of Abortion,” is part of an assessment that RFRA would not impact
available remedies concerning abortion rights. S. REP. NO. 103111, at 12; H.R. REP. NO. 103-88, at 8 (1993).
19 Petitioners seek to cabin Franklin further by asserting that
the decision rested on a unique “statutory context,” and claim
that “no similar contextual clues” exist here to indicate that
Congress intended to make damages available under RFRA.
Pet. 22. Petitioners once more get the presumption backward—
under Franklin, courts must presume the availability of all
appropriate remedies when faced with ambiguity in construing
a statute. Franklin, 503 U.S. at 66. Further, a contextual clue
does emerge in the legislative history of RFRA’s companion
statute, RLUIPA, which specifically references a private cause
of action for damages in the context of RFRA. See H.R. REP. NO.
18

21

especially true here, where Congress has explicitly
authorized courts to provide any “appropriate relief,”
without limitation.
In addition to the Second Circuit here and the
Third Circuit in Mack, other courts of appeals have
applied the Franklin presumption to express private
rights of action. See Ditullio v. Boehm, 662 F.3d
1091, 1098 (9th Cir. 2011) (applying Franklin presumption to conclude that punitive damages are
available under Trafficking Victims Pro-tection Act);
Reich v. Cambridgeport Air. Sys., Inc., 26 F.3d 1187,
1191 (1st Cir. 1994) (applying Franklin presumption
to conclude that “all appropriate relief” under Section
11 of the Occupational Safety and Health Act includes money damages). And Franklin itself relied in
part on Kendall v. United States ex rel. Stokes, 37
U.S. 524 (1838), in which this Court determined that
a statute provided for damages when the statute expressly provided a right of action but failed to specify
available remedies, making clear that the Court did
not intend to limit its holding to implied rights of
action. Franklin, 503 U.S. at 67.
3. Petitioners’ argument that money damages
against an individual official would not constitute
“appropriate relief against a government,” because
“they do not come out of the federal treasury,” is
equally unavailing. Pet. 12. First, RFRA defines
“government” to include not just officials acting in an
official capacity, but also persons “acting under color
of law.” 42 U.S.C. § 2000bb-1(c). The Second and
Third Circuits have ruled, App. 18a–22a; Mack, 839
F.3d at 301, that this language includes both officials
acting in individual capacities, as well as “private
106-219, at 29 (1999) (noting that language in bill allowing for
“appropriate relief” creates private right of action for damages).

22

parties,” a point that Petitioners concede. Pet. 16 n.2.
Since RFRA’s scope encompasses private party conduct, it is clear that payment from the federal treasury would not always be contemplated or required.
Second, even assuming, for the sake of argument,
that “appropriate relief against a government” must
“come out of the federal treasury,” Pet. 12, as a
“practical matter,” indemnification by the federal
government in suits brought against government
officials in their individual capacities is a “virtual
certainty.” Arar v. Ashcroft, 585 F.3d 559, 636 (2d
Cir. 2009) (Cabranes, J., dissenting) (internal quotations omitted); see also App. 78a n.8 (opinion of the
district court).
4. Petitioners’ assertion that the panel decision
is inconsistent with other decisions of this Court ignores the fact that those decisions were based on animating principles that are inapplicable here. Pet.
16–18, 21–23. Sossamon v. Texas, 563 U.S. 277
(2011), bears only a surface-level similarity to this
case in that the phrase “appropriate relief” was at
issue. That case addressed a different statute
(RLUIPA), a different class of defendants (state officials), a different claim for relief (official-capacity
suit), and a different judicial presumption (state sovereign immunity). Id. Although the Sossamon Court
found that the phrase “appropriate relief” in RFRA’s
sister statute, RLUIPA, did not permit the recovery
of money damages, 563 U.S. at 293, the case was
rooted in principles of state sovereign immunity, id.
at 288—far different from the posture here.
Exactly like the Second Circuit decision here, the
Sossamon Court began its analysis by recognizing
that the phrase “appropriate relief” was ambiguous
and “inherently context dependent,” id. at 286, and
then considered whether the Franklin presumption

23

applied. Id. at 288-89.20 Franklin did not apply, the
Court ended up deciding, because the facts in Sossamon triggered a different analysis: “the scope of an
express waiver of sovereign immunity.” Id. at 288. In
that narrow and unique context, the traditional presumption is reversed: “[t]he question . . . is not
whether Congress has given clear direction that it
intends to exclude a damages remedy, but whether
Congress has given clear direction that it intends to
include a damages remedy.” Id. at 289.21 Because the
phrase “appropriate relief” in that context did not
“unequivocally express[ ]” Congress’s intent to waive
state sovereign immunity, this Court held that
RLUIPA did not permit a suit for monetary damages
against a state or state officials sued in their official
capacities. Id. at 288, 293.

Sossamon’s finding that the phrase “appropriate relief” was
ambiguous is plainly at odds with Judge Jacobs’ contention in
his dissent that the Sossamon ruling relied on “‘the plain meaning of the text.’” Pet. 18 (citing App. 52a).
21 In a preview of this analysis, the Department of Justice,
which would be defending RFRA suits, studied the new statute
in 1994 and, in a formal opinion issued by the Office of Legal
Counsel (OLC), concluded that “[w]hen sovereign immunity
concerns are removed from the equation, . . . the interpretive
presumption is reversed: as against entities unprotected by
sovereign immunity, Congress must provide ‘clear direction to
the contrary’ if it wishes to make money damages unavailable
in a cause of action under a federal statute.” Walter Dellinger,
Availability of Money Damages Under the Religious Freedom
Restoration Act, 18 Op. O.L.C. 180, 182–83 (1994) (available on
Westlaw) (quoting Franklin, 503 U.S. at 70–71). Citing Franklin, the OLC further concluded that “[b]ecause RFRA’s reference to ‘appropriate relief’ does not clearly exclude money damages, there is a strong argument that under the Franklin
standard money damages should be made available to RFRA
plaintiffs in suits against non-sovereign entities.” Id. at 183.
20

24

The animating principle underlying Sossamon is
absent from this case. The individual capacity claims
against Petitioners present no sovereign immunity
concerns because Respondents seek monetary relief
from those officers personally, not from the federal or
state government.
Separate and apart from the sovereign immunity
context in Sossamon, RLUIPA is distinguishable
from RFRA in several crucial respects. RLUIPA “was
enacted pursuant to Congress’ spending power,
which allows the imposition of conditions, such as
individual liability, only on those parties actually
receiving the state funds.” Washington v. Gonyea,
731 F.3d 143, 145 (2d Cir. 2013) (per curiam) (citation omitted). Since “state officials are not direct recipients of the federal funds . . . they cannot be held
individually liable under RLUIPA.” Mack, 839 F.3d
at 303. RFRA, by contrast, was passed pursuant to
the Necessary and Proper Clause and, therefore,
“does not implicate the same concerns.” Id. at 303–
04. This Court reached an analogous conclusion in
Atlantic Cleaners & Dyers, Inc. v. United States, 286
U.S. 427 (1932), where it determined that the identical “restraint of trade or commerce” language in Sections 1 and 3 of the Sherman Anti-Trust Act, 26 Stat.
209, had different meanings, because Section 1 was
passed under the commerce power, and Section 3
was passed utilizing Congress’s near unlimited power over the District of Columbia. The Court found:
Where the subject-matter to which the words
refer is not the same in the several places
where they are used, or the conditions are
different, or the scope of the legislative power
exercised in one case is broader than that exercised in another, the meaning well may

25

vary to meet the purposes of the law, to be
arrived at by a consideration of the language
in which those purposes are expressed, and
of the circumstances under which the language was employed.
Id. at 433. Adopting the same principle, the Third
Circuit, joined by the Second Circuit, expressly rejected the argument that RLUIPA decisions decided
under the limitations imposed by the spending power
would control the outcome in RFRA cases. Mack, 849
F.3d at 303–04.
Still, Petitioners claim repeatedly that courts
have found that the “identical language” in RLUIPA
does not permit damages against state officials. Pet.
5, 8, 16. Yet RLUIPA was also enacted pursuant to
the
Commerce
Clause,
see
42
U.S.C.
§ 2000cc(a)(2)(B),
and
Petitioners
previously
acknowledged that courts “left open the question”
whether RLUIPA claims based on an effect on interstate commerce “could be brought for individual capacity damages.” Br. for Defs.-Appellees at 25 n.12,
Tanvir v. Tanzin, 894 F.3d 449 (2d Cir. 2018) (No.
16-1176), ECF No. 64 (citing Gonyea, 731 F.3d at
145–46 (withholding decision on whether “RLUIPA
authorizes individual-capacity suits under the imprimatur of the commerce clause” because plaintiff
had not pled any facts indicating any effect on interstate or foreign commerce)); see also Stewart v.
Beach, 701 F.3d 1322, 1334 n.11 (10th Cir. 2012)
(same); Rendelman v. Rouse, 569 F.3d 182, 189 (4th
Cir. 2009) (same). And at least one district court has
held that a plaintiff’s RLUIPA claims against state
prison officials sued in their individual capacities
could proceed given evidence that the complained-of
conduct affected interstate commerce. El-Badrawi v.

26

United States, No. 07-CV-1074, 2011 WL 13086946,
at *13–15 (D. Conn. May 16, 2011).
4. The Second Circuit’s decision here also does
not run counter to Ashcroft v. Iqbal, 556 U.S. 662
(2009), or Ziglar v. Abbasi, 137 S. Ct. 1843 (2017),
which Petitioners cite for the notion that “diverting
officials from their duties” in “a national-security
related lawsuit” is especially damaging to the functioning of the executive branch, and therefore implicates separation of powers concerns. Pet. 24. Both
those cases involved claims against high-level policymaking officials, including cabinet secretaries. In
Abbasi, this Court expressed concerns about the prospective chilling effect on actions by future cabinetlevel officials, and the threat to the deliberative process of high-level policymakers, particularly in the
aftermath of the acute national crisis posed by the
events of September 11, 2001. Abbasi, 137 S. Ct. at
1860–63. In contrast, the remaining defendants here
are FBI field agents or their immediate supervisors.
Unlike in Abbasi, “policy-making” is therefore simply
not at issue, Pet. 14, and certainly not with respect
to “core” executive immigration powers. Pet. 24; cf.
Abbasi, 137 S. Ct at 1862 (reaffirming, in distinct
Bivens context, that “challenge[s to] individual instances of discrimination or law enforcement overreach [by] their very nature are difficult to address
except by way of damages actions after the fact”).
Moreover, the plaintiffs in both Iqbal and Abbasi
had been labelled as “of special interest” to the investigation of the September 11, 2001 attacks. Abbasi,
137 S. Ct. at 1851–53; Iqbal, 556 U.S. at 666–68.
Here, the allegations are that FBI agents sought to
coerce Respondents to serve as informants on their
religious communities not because they were thought
to have any connection whatsoever to foreign or do-

27

mestic criminals or “terrorists,” but rather to gather
information on the American Muslim community
writ large.22 Respondents’ lack of connection to any
activity warranting their watchlisting is underscored
by the fact that they were all informed that they
were no longer on the List after they sued and before
the district court heard argument on the motions to
dismiss. App. 12a. Simply put, this is a civil rights
case challenging abuses by low-level field officers,
not a challenge to national security policymaking by
high-level principals.
Another clear distinction between this case and
Abbasi is that Abbasi was decided in the Bivens context. As emphasized by Chief Judge Katzmann, concurring in the denial of rehearing en banc, unlike a
Bivens action, which is an implied cause of action,
“RFRA contains an express private right of action
The record does not support Petitioners’ claim that “agents of
the Federal Bureau of Investigation (FBI) asked [Respondents]
to serve as informants . . . in terrorism-related investigations.”
Pet. 4; see App. Opp’n 2a–3a (Am. Compl. ¶ 4) (Respondents
declined “to spy on their own American Muslim communities
and other innocent people”); id. at 23a–24a, 37a–38a, 39a–40a,
42a, 51a (Am. Compl. ¶¶ 69–70, 120, 125, 132, 156) (describing
generic questioning); id. at 42a, 44a (Am. Compl. ¶¶ 133, 136)
(Respondent Algibhah asked to go online and “‘act extremist’”);
id. at 25a–26a, 48a–49a (Am. Compl. ¶¶ 75, 148) (two Respondents were asked if they had attended training camps (they had
not), not to inform on any others who actually might have).
Only once in the complaint does an inquiry touch on a specific
potential crime. See id. at 23a–24a (Am. Compl. ¶ 69) (Respondent Tanvir asked about an “old acquaintance whom the
FBI agents believed had attempted to enter the United States
illegally”); cf. Pet. 24 (“The allegations in this lawsuit concern
purported efforts by FBI agents to obtain assistance from [Respondents] in connection with investigations into potential terrorist or criminal activity, including by noncitizens.”) (emphasis
added).

22

28

with an express provision for ‘appropriate relief.’”
App. 47a (quoting 42 U.S.C. § 2000bb-1(c)); cf. Corr.
Servs. Corp. v. Malesko, 534 U.S. 61, 71 n.5 (2001)
(distinguishing judicially implied private right of action in Bivens from the Section 1983 context, akin to
RFRA, “where Congress already provides for . . . liability”). Rather than imply a right of action here, as
in a Bivens action, a court’s role in this case is to consider “the scope of an express right of action with an
express provision of remedies from Congress.” App.
50a.
For this reason, unlike in Abbasi, separation of
powers concerns are not present here. In Abbasi, this
Court was concerned that implying a right of action
would amount to an undue arrogation of legislative
authority. Abbasi, 137 S. Ct. at 1858. Here, by contrast, a court is interpreting and enforcing a cause of
action expressly created by the legislature. Such
statutory interpretation is a “time-honored exercise
of the judiciary’s power to grant relief where Congress has legislated liability.” App. 49a. Indeed, “if
federal courts declined to recognize remedies for express causes of action, it ‘would harm separation of
powers principles in another way, by giving judges
the power to render inutile causes of action authorized by Congress.’” Id. (quoting Franklin, 503 U.S. at
74).
5. The panel decision is also consistent with decisions interpreting Section 1983, which, long before
RFRA’s enactment, had consistently been held to
authorize individual and official capacity suits. See,
e.g., Hafer v. Melo, 502 U.S. 21, 25, 31 (1991); Kentucky v. Graham, 473 U.S. 159, 166 (1985). When
Congress drafted RFRA, it intended for it to apply to
both federal and state governments and officials. See
City of Boerne v. Flores, 521 U.S. 507, 516 (1997)

29

(noting that RFRA, at the time, applied to any
“State, or . . . subdivision of a State” (alteration in
original) (quoting 42 U.S.C. § 2000bb-2(1))). The natural model for relief against state officials was Section 1983, and it was clear at the time that damages
could be obtained under Section 1983 against state
officials for violations of Free Exercise rights. See,
e.g., Hunafa v. Murphy, 907 F.2d 46, 48–49 (7th Cir.
1990). Only in Boerne was RFRA’s applicability confined to federal government actions, see 521 U.S. at
534–36, and Congress did not revisit the relief provisions of the statute after Boerne.
Yet Petitioners seek to contrast RFRA and the
similarly-worded Section 1983, which they argue
“spoke[] in unambiguous terms” about creating an
express cause of action that provides for damages
against individual officers. Pet. 11. Like RFRA, Section 1983 creates a private right of action against
“person[s]” who, acting “under color of [law],” violate
a plaintiff’s rights. Because of the textual similarities, courts have found that “it is safe to assume that
Congress understood that it acted against the backdrop of settled § 1983 precedent when it added the
similar ‘under color of law’ language to RFRA.” Patel,
125 F. Supp. 3d at 51 (Moss, J.). For this reason, the
Second Circuit, joining several other circuits in interpreting this term, did “not find ‘this word choice [ ]
coincidental,’ as ‘Congress intended for courts to borrow concepts from § 1983 when construing RFRA.’”
App. 22a (quoting Mack, 839 F.3d at 302); see also
Listecki v. Official Comm. of Unsecured Creditors,
780 F.3d 731, 738 (7th Cir. 2015); Sutton v. Providence St. Joseph Med. Ctr., 192 F.3d 826, 834–35
(9th Cir. 1999).
The Second Circuit correctly concluded that, by
authorizing RFRA suits against “person[s]” acting

30

“under color of law,” Congress’s intent was to import
the settled judicial interpretation of that phrase to
allow for individual capacity claims against federal
officials or other “person[s] acting under color of [federal] law.” App. 22a. The court also accurately apprehended that the phrase “contemplates that persons other than officials may be sued under RFRA,
and persons who are not officials may be sued only in
their individual capacities.” Id. at 20a–21a (quoting
Patel, 125 F. Supp. 3d at 50) (internal quotation
marks omitted).
That Section 1983 and RFRA permit individual
capacity suits “leads logically to the conclusion that
[RFRA] permits a damages remedy against those
individuals.” Id. at 26a n.9. Since official capacity
suits for injunctive relief allow for injunctive relief
“against the governmental entity as a whole,” seeking injunctive relief against a defendant in their individual capacity “has limited value.” Id. Likewise,
“suits seeking compensation from officers in their
official capacity . . . are generally barred by sovereign immunity.” Id. As recognized in the court of appeals decision below and in cases construing the
same language in Section 1983, individual capacity
suits, like this one, “tend to be associated with damages, and official capacity suits with injunctive relief.” Id.
The Petitioners also attempt to distinguish Section 1983 from RFRA by seizing on language in Section 1983 providing that “[e]very person” acting under color of law who deprives another of federal
rights “shall be liable to the party injured in an action at law.” Pet. 15. They argue that the inclusion of
language regarding actions “at law” means that Section 1983 unambiguously provides for damages actions and, by extension, the omission of such lan-

31

guage from RFRA means that damages actions are
not contemplated. Id. at 15–16. Section 1983 was
passed in 1871, when the distinction between suits in
equity and actions at law had practical implications
for civil procedure and available remedies. See, e.g.,
Liberty Oil Co. v. Condon Nat’l Bank, 260 U.S. 235,
242 (1922). Conversely, RFRA was drafted and enacted in 1993, 55 years after the abolition of the distinction between suits in equity and actions at law
eliminated any need for textual denotation. See, e.g.,
Charles E. Clark & James William Moore, A New
Federal Civil Procedure—I. The Background, 44
YALE L.J. 387, 391 (1935). Absent the need to expressly provide for suits in equity or actions at law,
Congress made clear in RFRA the breadth of available remedies with language befitting the present era.
Congress, with bipartisan support and with Section 1983 as its model, sought to create in RFRA “a
broad protection of religious exercise, to the maximum extent permitted by the terms of this chapter
and the Constitution.” 42 U.S.C. § 2000cc-3(g); see
also Burwell, 573 U.S. at 693 (“Congress enacted
RFRA in 1993 in order to provide very broad protection for religious liberty.”). As this Court found in
Burwell, “RFRA did more than merely restore the
balancing test used in the Sherbert line of cases; it
provided even broader protection for religious liberty
than was available under those decisions.” 573 U.S.
at 695 n.3. Damages, especially in cases such as this
one involving “individual instances of discrimination
or law enforcement overreach,” Abbasi, 137 S. Ct. at
1862, are an essential part of that protection.

32

CONCLUSION
For the reasons set forth above, the petition for a
writ of certiorari should be denied.
Respectfully submitted,
RAMZI KASSEM
Counsel of Record
NAZ AHMAD
CLEAR PROJECT
Main Street Legal Services,
Inc.
City University of New York
School of Law
2 Court Square
Long Island City, NY 11101
(718) 340-4558
ramzi.kassem@law.cuny.edu
SHAYANA KADIDAL
DIALA SHAMAS
BAHER AZMY
Center for Constitutional
Rights
666 Broadway, Floor 7
New York, NY 10012
(212) 614-6438
kadidal@ccrjustice.org
JENNIFER R. COWAN
EROL GULAY
SANDY TOMASIK
WILLIAM C. MATTESSICH
Debevoise & Plimpton LLP
919 Third Avenue

33

New York, NY 10022
(212) 909-7445
jrcowan@debevoise.com
October 11, 2019

1a

APPENDIX A
In the United States District Court
For the Southern District of New York
MUHAMMAD TANVIR; JAMEEL ALGIBHAH;
NAVEED SHINWARI; AWAIS SAJJAD,
Plaintiffs,
v.
ERIC H. HOLDER, ATTORNEY GENERAL OF THE
UNITED STATES; JAMES COMEY, DIRECTOR,
FEDERAL BUREAU OF INVESTIGATION;
CHRISTOPHER M. PIEHOTA, DIRECTOR,
TERRORIST SCREENING CENTER; JEH C.
JOHNSON, SECRETARY, DEPARTMENT OF
HOMELAND SECURITY; “FNU” TANZIN,
SPECIAL AGENT, FBI; SANYA GARCIA, SPECIAL
AGENT, FBI; FRANCISCO ARTOUSA, SPECIAL
AGENT, FBI; JOHN “LNU”, SPECIAL AGENT,
FBI; MICHAEL RUTKOWSKI, SPECIAL AGENT,
FBI; WILLIAM GALE, SUPERVISORY SPECIAL
AGENT, FBI; JOHN C. HARLEY III, SPECIAL
AGENT, FBI; STEVEN “LNU”, SPECIAL AGENT,
FBI; MICHAEL “LNU”, SPECIAL AGENT, FBI;
GREGG GROSSOEHMIG, SPECIAL AGENT, FBI;
WEYSAN DUN, SPECIAL AGENT IN CHARGE,
FBI; JAMES C. LANGENBERG, ASSISTANT
SPECIAL AGENT IN CHARGE, FBI; “JOHN DOES
1-9, 11-13”, SPECIAL AGENTS, FBI; “JOHN DOE
10”, SPECIAL AGENT, DHS,
Defendants.

2a

FIRST AMENDED COMPLAINT
Case No. 13-CV-6951 ECF Case
INTRODUCTION
1.

In retaliation for the exercise of their
constitutional rights, the United States
government has deprived Plaintiffs Muhammad
Tanvir, Jameel Algibhah, Naveed Shinwari and
Awais Sajjad of their right to travel freely and
wrongly stigmatized them without justification
and without due process of law by placing them
on the No Fly List.

2.

The No Fly List is supposed to be limited to
individuals who are determined to be such
significant threats to aviation safety that it is too
dangerous to allow them on any commercial
flight to, from or over the United States
regardless of the extent of pre-boarding searches.

3.

Instead, shielded from public and, to a large
extent, judicial scrutiny, and lacking effective
controls and supervision, the No Fly List has
swelled to approximately 21,000 names as of
February 2012, including approximately 500
United States citizens and an unknown number
of lawful permanent residents. On information
and belief, the number of people on the No Fly
List is even larger today.

4.

Plaintiffs are among the many innocent people
who find themselves swept up in the United
States government’s secretive watch list dragnet.
Defendants have used the No Fly List to punish

3a

and retaliate against Plaintiffs for exercising
their constitutional rights. Plaintiffs declined to
act as informants for the Federal Bureau of
Investigation (“FBI”) and to spy on their own
American Muslim communities and other
innocent people.
5.

Inclusion on the No Fly List severely burdens
Plaintiffs and significantly interferes with their
constitutional right to travel freely. Plaintiffs,
like the thousands of other individuals on the No
Fly List, lack any effective due process
protections to challenge their placement on the
No Fly List and the deprivation of their
constitutional rights that results from that
placement.

6.

The Attorney General of the United States, the
Secretary of the Department of Homeland
Security (“DHS”), and the directors of the FBI
and Terrorist Screening Center (“TSC”),
(collectively, the “Agency Defendants”) each play
a part in creating, maintaining, implementing
and supervising the No Fly List.

7.

The Agency Defendants have not articulated or
published any meaningful standards or criteria
governing the placement of individuals on the No
Fly List. Defendants have not informed any
Plaintiff of the basis for his inclusion on the No
Fly List. Defendants have even denied the
Plaintiffs after-the-fact explanations for their
inclusion on the List or an opportunity to contest

4a

their inclusion
decision-maker.

before

an

impartial

8.

Certain FBI Special Agents and other
government agents (collectively, the “Special
Agent Defendants”), identified below, exploited
the significant burdens imposed by the No Fly
List, its opaque nature and ill-defined standards,
and its lack of procedural safeguards, in an
attempt to coerce Plaintiffs into serving as
informants within their American Muslim
communities and places of worship. The Special
Agent Defendants retaliated against Plaintiffs by
placing or retaining them on the No Fly List
when they refused to serve as informants.

9.

Because of institutional and supervisory pressure
to increase the number of confidential
informants in American Muslim communities,
FBI agents, including the Special Agent
Defendants, have used the No Fly List to
retaliate against and coerce individuals in these
communities who, like Plaintiffs, have refused to
become informants but do not pose a threat to
aviation safety.

10.

The Agency Defendants tolerated and failed to
remedy a pattern and practice among FBI and
other United States government Special Agents,
including the Special Agent Defendants, of
unlawfully exploiting the lack of due process
surrounding the No Fly List to retaliate against
individuals, including Plaintiffs, who exercised
their constitutional rights.

5a

11.

In order to vindicate their rights, Plaintiffs seek
declaratory, injunctive and monetary relief under
the Administrative Procedure Act (“APA”), 5
U.S.C. §§ 702, 706; the Religious Freedom
Restoration Act of 1993 (“RFRA”), 42 U.S.C. §
2000bb et seq.; and Bivens v. Six Unknown
Named Agents of Federal Bureau of Narcotics,
403 U.S. 388 (1971). Plaintiffs seek, inter alia,
(i) to remove their names from the United States
government’s “No Fly List,” (ii) declaratory and
injunctive relief against the individuals who
placed or kept them on the No Fly List without
cause and in retaliation for their assertion of
constitutional rights in refusing to serve as
informants, (iii) declaratory and injunctive relief
against the government officials responsible for
maintaining a No Fly List that lacks due process
and permits misuse, and (iv) monetary relief for
damages they suffered as a result of their
placement and maintenance on the No Fly List
because they refused to act as informants for the
FBI.
JURISDICTION AND VENUE

12.

This Court has jurisdiction under 28 U.S.C.
§ 1331 and 5 U.S.C. § 702. This Court has the
authority to grant declaratory relief pursuant to
the Declaratory Judgment Act, 28 U.S.C. §§ 2201
and 2202; the RFRA, 42 U.S.C. § 2000bb-1(c);
and the APA, 5 U.S.C. § 702. This Court has the
authority to compel agency action that has been
unlawfully withheld or unreasonably delayed,
and to hold unlawful and set aside agency actions

6a

under 5 U.S.C. § 706. Monetary damages are
available pursuant to RFRA, 42 U.S.C. §
2000bb-1(c), and Bivens v. Six Unknown Named
Agents of Federal Bureau of Narcotics, 403 U.S.
388 (1971).
13.

This Court is a proper venue for this action
pursuant to 28 U.S.C. § 1391(e)(1) because
Defendants are officers and employees of the
United States or its agencies operating under
color of law, and a substantial part of the events
or omissions giving rise to the claims have
occurred and are occurring in this judicial
district.
PARTIES

14.

Plaintiff Muhammad Tanvir is a lawful
permanent resident of the United States whose
most recent residence in the United States was
in Corona, Queens, New York. Mr. Tanvir is
Muslim. Mr. Tanvir was placed on the No Fly
List after he declined multiple requests by FBI
agents to serve as an informant in his Muslim
community. He declined to do so because it
would have violated his sincerely held religious
beliefs. He also felt that he had no relevant
information to share. After he learned that he
had been placed on the No Fly List, he was told
to contact the same FBI agents to clear up what
he presumed was an error that led to his
placement on the No Fly List. Instead, the FBI
agents offered to help him get off the List—but
only in exchange for relaying information about

7a

his community. Mr. Tanvir again refused. Mr.
Tanvir does not pose, has never posed, and has
never been accused of posing, a threat to aviation
safety.
15.

Plaintiff Jameel Algibhah is a United States
citizen who resides in the Bronx, New York. Mr.
Algibhah is a Muslim. Mr. Algibhah was placed
on the No Fly List after he declined a request
from FBI agents to attend certain mosques, to
act “extremist,” and to participate in online
Islamic forums and report back to the FBI
agents. After Mr. Algibhah learned that he was
on the No Fly List, the same FBI agents again
visited him, telling him that only they could
remove his name from the No Fly List if he
agreed to act as an informant. Mr. Algibhah
again exercised his constitutional right to refuse
to become an informant and he remains on the
No Fly List. Because of his placement on the No
Fly List, Mr. Algibhah has been unable to visit
his wife and three young daughters in Yemen
since 2009. Mr. Algibhah does not pose, has
never posed, and has never been accused of
posing, a threat to aviation safety.

16.

Plaintiff Naveed Shinwari is a lawful permanent
resident of the United States who resides in West
Haven, Connecticut. Mr. Shinwari is a Muslim.
Mr. Shinwari was placed or maintained on the
No Fly List after he refused a request from FBI
agents to be an informant on his Muslim
community. Subsequently, he was prevented
from boarding a flight to Orlando, Florida, where

8a

he had found work. Following his placement on
the No Fly List, the same FBI agents approached
Mr. Shinwari, told him they were aware of his
inability to board his flight, and again asked him
to work as an informant. Mr. Shinwari again
refused. Because of his placement on the No Fly
List, Mr. Shinwari’s work has been disrupted
and he has been unable to visit his wife and
family in Afghanistan since 2012. Mr. Shinwari
does not pose, has never posed, and has never
been accused of posing, a threat to aviation
safety.
17.

Plaintiff Awais Sajjad is a lawful permanent
resident of the United States who resides in
Jersey City, New Jersey. Mr. Sajjad is a Muslim.
Mr. Sajjad was prevented from flying because he
was on the No Fly List. After he sought to be
removed from the List, he was approached by
FBI agents and subjected to extensive
interrogation, including a polygraph test, after
which he was asked to work as an informant for
the FBI. Mr. Sajjad had no relevant information
to share, so he refused. Because of his placement
on the No Fly List, Mr. Sajjad has been unable to
visit his family in Pakistan, including his ailing
93-year old grandmother, since February 2012.
Mr. Sajjad does not pose, has never posed, and
has never been accused of posing, a threat to
aviation safety.

18.

Defendant Eric H. Holder, Jr. is the Attorney
General of the United States and the head of the
United States Department of Justice, which

9a

oversees the FBI. In turn, the FBI administers
the TSC, which is tasked with maintaining the
No Fly List. All of the Plaintiffs were pressured
to become informants and placed on the No Fly
List by FBI Special Agents. Defendant Holder is
sued in his official capacity.
19.

Defendant James B. Comey is the Director of the
FBI. The FBI administers the TSC. The FBI is
also one of the agencies empowered to
“nominate” individuals for placement on the No
Fly List. If an individual who has been placed on
the No Fly List challenges his or her inclusion on
the List, the FBI coordinates with the TSC to
determine whether the individual should remain
on the List. The FBI also has an ongoing
responsibility to notify the TSC of any changes
that could affect the validity or reliability of
information used to “nominate” someone to the
No Fly List. All of the Plaintiffs were pressured
to become informants by FBI Special Agents.
Defendant Comey is sued in his official capacity.

20.

Defendant Christopher M. Piehota is the
Director of the TSC. The TSC is responsible for
coordinating the government’s approach to
terrorism screening and the dissemination of
information collected in the Terrorist Screening
Database (“TSDB”), which is used in the
terrorism screening process. The TSC is
responsible for reviewing and accepting
nominations to the No Fly List from agencies,
including the FBI and for maintaining the List.
The TSC is responsible for making the final

10a

determination whether to add or remove an
individual from the No Fly List. Defendant
Piehota is sued in his official capacity.
21.

Defendant Jeh C. Johnson is the Secretary of
Homeland Security and serves as the head of the
Department of Homeland Security (“DHS”). The
DHS is responsible for developing and
coordinating the implementation of a
comprehensive strategy to protect the United
States from threats and attacks. The DHS is
additionally charged with establishing and
implementing the Traveler Redress Inquiry
Program (“TRIP”) redress procedures for
individuals, which is the sole and wholly
inadequate mechanism for, inter alia, filing a
complaint about placement on the No Fly List.
Defendant Johnson is sued in his official
capacity.

22.

Defendant “FNU” (first name unknown) Tanzin
is a Special Agent with the FBI.1 He is sued in
his individual and official capacity.

23.

Defendant Sanya Garcia is a Special Agent with
the FBI.2 She is sued in her individual and
official capacity.

1

Possible alternative spellings could include “Tanzen,”
“Tenzin,” or “Tenzen.” Also, it is unclear whether Tanzin is the
agent’s first or last name.
2

Possible alternative spellings could include “Sania,”
“Sonya,” or “Sonia.”

11a

24.

Defendant John “LNU” (last name unknown) is
a Special Agent with the FBI. He is sued in his
individual and official capacity.

25.

Defendant Francisco Artousa is a Special Agent
with the FBI. He is sued in his individual and
official capacity.3

26.

Defendant Michael Rutkowski is a Special Agent
with the FBI.4 He is sued in his individual and
official capacity.

27.

Defendant William Gale is a Supervisory Special
Agent with the FBI. He is being sued in his
individual and official capacity.

28.

Defendant John C. Harley III is a Special Agent
with the FBI. He is sued in his individual and
official capacity.

29.

Defendant Steven LNU (last name unknown) is
a Special Agent with the FBI. He is sued in his
individual and official capacity.

30.

Defendant Michael LNU (last name unknown) is
a Special Agent with the FBI. He is sued in his
individual and official capacity.

3

Possible alternative designations could be “Frankie” or
“Frank,” and possible alternative spelling of his last name
“Artusa.”
4

Possible alternative spellings could include “Rotkowski.”

12a

31.

Defendant Gregg Grossoehmig is a Special Agent
with the FBI. He is sued in his individual and
official capacity.

32.

Special Agent in Charge Weysan Dun is a Special
Agent with the FBI. He is sued in his individual
and official capacity.

33.

Assistant Special Agent in Charge James C.
Langenberg is a Special Agent with the FBI. He
is sued in his individual and official capacity.

34.

Defendants “John Doe” 1 through 9 and 11
through 13 are Special Agents with the FBI.
They are sued in their individual and official
capacities.

35.

Defendant “John Doe” 10 is an Agent with DHS.
He is sued in his individual and official capacity.
FACTUAL ALLEGATIONS
The FBI’s Use of Informants
in American Muslim Communities

36.

In the past twelve years, the FBI has engaged in
widespread targeting of American Muslim
communities for surveillance and
intelligence-gathering. These law enforcement
policies and practices have included the
aggressive recruitment and deployment of
informants, known as “Confidential Human
Sources,” in American Muslim communities,
organizations, and houses of worship.

13a

37.

Since 2001, FBI recruitment of informants has
significantly expanded.
A November 2004
Presidential Directive required an increase in
“human source development and management.”
In 2007, then-Deputy Director of the FBI John
Pistole testified before the United States Senate
Select Committee on Intelligence that in
response to this directive, the FBI “will
encourage [Special Agents] to open and operate
new Human Sources.” The FBI’s 2008 fiscal year
budget authorization request included funding
for a program to track and manage the growing
number of such informants. Many of these
informants are recruited from and deployed
among American Muslim communities.

38.

To recruit informants, FBI agents often resort to
exploiting individual vulnerabilities. FBI agents
have threatened American Muslims with
interfering with their immigration status, or
offered to assist with their immigration status –
practices that are prohibited under the Attorney
General’s Guidelines Regarding the Use of
Confidential Human Sources, which states: “No
promises can be made, except by the United
States Department of Homeland Security,
regarding the alien status of any person or the
right of any person to enter or remain in the
United States.” American Muslims have also
been threatened with prosecution, often on
minor, non-violent charges, if they refuse to
become informants.

14a

39.

However improper these practices may be, they
differ in kind from the increasingly common
abuse challenged in this lawsuit: retaliation
against those who refuse to become informants
by placing them on the No Fly List. Withholding
immigration benefits or bringing criminal
charges against American Muslims can be
challenged and resolved under known legal
standards through procedurally adequate
administrative or judicial proceedings. Unlike
those situations, the No Fly List operates under
unknown standards and a vague set of criteria
with a process that provides no opportunity to
learn of the purported bases for placement on
the List or to respond to such claims. This
secretive process is conducted with no impartial
determination on the merits, and without regard
to the possibly retaliatory or unduly coercive
motives of the field agents who place people on
the No Fly List.
The No Fly List

40.

The TSC, which is administered principally by
the FBI, develops and maintains the TSDB,
which includes the No Fly List. The TSDB is the
federal government’s centralized database that
includes information about all individuals who
are supposedly known to be or reasonably
suspected of being involved in terrorist activity.
The TSC maintains and controls the Database
and shares the information in it (including the
names of individuals on the No Fly List) with
federal, state, and local law enforcement

15a

agencies. The TSC also provides the No Fly List
to the Transportation Security Administration
(“TSA”) and to airline representatives, which
screen individual passengers before boarding, as
well as to cooperating foreign governments for
use by their agencies.
41.

The FBI is one of the primary agencies
responsible for making “nominations” to the
TSDB, though a number of other federal
agencies may also “nominate” individuals. To be
nominated for inclusion in the TSDB, there is
supposed to be “reasonable suspicion” that the
individual is a “known or suspected terrorist.” It
is up to each nominating agency to interpret this
definition and decide when a person meets the
“reasonable suspicion” standard for being a
known or suspected terrorist and should be
nominated to the Database. The TSC makes the
final decision on whether an individual should be
placed on the No Fly List.

42.

To be properly placed on the No Fly List, an
individual must not only be a “known or
suspected terrorist,” but there must be some
additio n a l “ d e r ogatory information”
demonstrating that the person “pose[s] a threat
of committing a terrorist act with respect to an
aircraft.”

43.

Beyond this, little information about the No Fly
List has been made public, including its exact
size. The government refuses to publish or
otherwise disclose the standard or criteria for

16a

inclusion on the No Fly List or what additional
“derogatory information” is sufficient to deprive
someone of their ability to fly on commercial
airlines.
44.

Inclusion on the No Fly List imposes severe and
onerous consequences on individuals.
Individuals on the No Fly List are indefinitely
barred from boarding an aircraft for flights that
originate from, terminate in, or pass over the
United States.

45.

The TSDB also includes other watch lists, which
identify people who are subject to less severe and
intrusive restrictions. For example, individuals
on the Selectee List are subject to extensive
pre-boarding physical screening but are allowed
to travel by air. The very existence of the
Selectee List, which is not the subject of a
challenge in this lawsuit, implicitly reflects the
government’s recognition that the No Fly List,
with its much more restrictive effect, is supposed
to be limited to individuals who present so great
a threat to aviation safety that no degree of
pre-boarding examination and inspection is
sufficient to obviate the perceived threat.

46.

Absent a meaningful articulated standard for
inclusion on the No Fly List and an adequate set
of procedural safeguards, the government has
broadened the grounds for inclusion on the No
Fly List at least twice: in February 2008 and
again in May 2010, according to an audit report
published in March 2014 by the Office of the

17a

Inspector General of the United States
Department of Justice (the “OIG Report”).
47.

Despite the narrow purpose intended for the No
Fly List, it has grown significantly in recent
years. Upon information and belief, in 2009,
there were approximately 3,400 individuals on
the No Fly List and by February 2012, over
21,000 people were on it.
Moreover, on
information and belief, the TSC rarely rejects
any of the names proposed for the TSDB. The
entire TSDB reportedly contained 875,000
names as of May 2013.

48.

According to the OIG Report, the TSC itself has
found that shortly after the attempted attack on
a Northwest Airlines flight on December 25,
2009, many individuals were temporarily placed
on the No Fly List who did not qualify for
inclusion on it.

49.

It is unknown how many of the approximately
21,000 individuals on the No Fly List have been
added in error. In a recent case, a federal district
court found that a professor was added to the No
Fly List because an FBI agent checked the wrong
boxes on the nominating form. Ibrahim v. Dep’t
of Homeland Security, No. 3:06-cv-0545 (WHA),
Notice of Compliance with Court’s February 3,
2014 Order (attaching Findings of Fact,
Conclusions of Law, and Order for Relief), at 9
(N.D. Cal. Feb. 6, 2014). Despite this admitted
ministerial mistake, the government refused to
confirm that the professor had been removed

18a

from the List until being ordered to do so by the
court eight years later.
50.

When the TSC provides the No Fly List to the
TSA for use in pre-screening airline passengers
on commercial flights, the TSA receives certain
identifying information for individuals on the No
Fly List, including name and date of birth, but
not any of the information based upon which
that person’s name was included on the No Fly
List.

51.

The fact that an individual is on the No Fly List
is provided to, or accessible by, airline personnel
who process an individual’s request for a
boarding pass.

52.

The TSA screens travelers by conducting a
name-based search of a passenger prior to
boarding. This search is conducted when an
individual attempts to obtain a boarding pass,
not when the individual purchases a ticket. If an
individual is on the No Fly List, he or she will be
allowed to purchase a ticket but then will be
denied boarding.

53.

Upon information and belief, airlines generally
do not provide refunds or reimbursement for
tickets when a purchaser is denied boarding
because of their inclusion on the No Fly List.
Waivers and Redress Process

54.

No one—not even United States citizens or
lawful permanent or temporary alien
residents—receives notice when they are added

19a

to the TSDB or the No Fly List. Individuals
effectively learn of their placement on the No Fly
List when they are denied a boarding pass at the
airport by airline representatives who, after
identifying an individual’s name on the No Fly
List, are frequently joined by TSA agents or
other airport security or law enforcement
personnel.
55.

There is no formal process for seeking a waiver
to allow an individual on the No Fly List to fly
but, upon information and belief, occasionally
after being denied the right to board a flight,
United States citizens and lawful permanent
residents stranded abroad have been granted
permission to board a single flight to the United
States. These waivers are typically obtained
after the individual who is on the No Fly List
reaches out to legal counsel, consular officers or
other United States government officials for
assistance after being prevented from boarding
their flight back to the United States from a
foreign country.

56.

The OIG Report found that a host of
challenges—including poor recordkeeping
practices and the complex, multiparty nature of
the No Fly List’s administration—makes
ensuring the removal of individuals from the No
Fly List extremely difficult.

57.

Individuals added to the No Fly List have no
procedurally adequate notice and opportunity to
be heard or to challenge their placement. The

20a

only avenue available to individuals who have
been barred from flying is the TRIP program.
DHS is responsible for the TRIP procedures and
the administrative appeals from such
determinations.
58.

If the name of the individual seeking redress is
an exact or near match to a name on the No Fly
List, DHS submits the TRIP inquiry to the TSC,
which makes the final decision as to whether any
action should be taken. The TSC’s process for
making this determination is entirely secret.
There is no hearing or other opportunity for the
aggrieved individual to participate. The TSC has
refused to provide any information about the
standards it uses or how it makes such decisions,
other than to state that during its review the
TSC “coordinates with” the agency that
originally nominated the individual to be
included in the TSDB. Once the TSC makes a
final determination regarding a particular
individual’s status on the No Fly List, the TSC
advises DHS of its decision.

59.

DHS will neither confirm nor deny the existence
of any No Fly List records relating to an
individual. Instead, DHS sends a letter to the
TRIP applicant stating whether or not any such
records related to the individual have been
“modified.” The letter does not state how the
government has resolved the complaint and does
not state whether an individual remains on the
No Fly List or will be permitted to fly in the
future.

21a

60.

Appeal from the TRIP determination is a
similarly secret process and, in the end, the
appellant is still not told whether they remain on
the No Fly List. Thus, the only “process”
available to individuals who are prohibited from
boarding commercial flights is to submit their
names and other identifying information and
hope that an unspecified government agency
corrects an error or changes its mind. Because
the TRIP process never clearly informs the
individual of the outcome, they only learn if they
are still on the No Fly List by purchasing
another airline ticket and trying to travel again.

61.

After the TRIP administrative appellate process
is complete, there is no way to request a
reassessment of the basis for inclusion on the No
Fly List nor, upon information and belief, is
there any automatic periodic review process to
reassess whether any changed circumstances
warrant removal of an individual from the No
Fly List.

62.

As a general matter of policy, the United States
government will never voluntarily confirm in
writing that a person is on or off the No Fly List,
even if individual federal officers or airline
employees have told an individual that they
cannot board a flight because they are on the
List.

22a

Abuse of the No Fly List to Pressure
Individuals to Become Informants
63.

The processes related to the No Fly List
promulgated and maintained by the Agency
Defendants—from “nomination” to
implementation to redress—are shrouded in
secrecy and ripe for abuse.

64.

The Special Agent Defendants have exploited
these flaws and used the No Fly List to coerce
Plaintiffs to become informants for the FBI, not
for the stated purpose of keeping extremely
dangerous individuals from flying on commercial
airlines. This impermissible abuse of the No Fly
List has forced Plaintiffs to choose between their
constitutionally-protected right to travel, on the
one hand, and their First Amendment rights on
the other.

65.

Many American Muslims, like many other
Americans, and many followers of other
religions, have sincerely held religious and other
objections against becoming informants in their
own communities, particularly when they are
asked to inform on the communities as a whole
rather than specific individuals reasonably
suspected of wrongdoing.
Acting as an
informant would require them to lie and would
interfere with their ability to associate with
other members of their communities on their
own terms. For these American Muslims, the
exercise of Islamic tenets precludes spying on the
private lives of others in their communities.

23a

66.

The FBI uses the No Fly List to coerce American
Muslims into becoming informants and to
retaliate against them when they exercise
constitutionally protected rights.

67.

Upon information and belief, the Agency
Defendants promulgated, encouraged and
tolerated a pattern and practice of aggressively
recruiting and deploying informants in American
Muslim communities, which the Special Agent
Defendants implemented by exploiting the
unarticulated and vague standards and the lack
of procedural safeguards pertaining to the No
Fly List.
Plaintiff Muhammad Tanvir

68.

Plaintiff Muhammad Tanvir is a lawful
permanent resident of the United States whose
most recent residence in the United States was
in Corona, Queens, New York. He has been
married since March 2, 2006. Mr. Tanvir’s wife,
son, and parents live in Pakistan. Mr. Tanvir
has never been convicted of a crime or arrested.
Mr. Tanvir does not pose, has never posed, and
has never been accused of posing, a threat to
aviation safety.

69.

In early February 2007, Mr. Tanvir was
approached by the FBI at his workplace, a
99-cents store in the Bronx. FBI Special Agent
Defendant FNU Tanzin and another FBI agent,
Defendant “John Doe #1,” questioned Mr.
Tanvir there for approximately thirty minutes.
They asked him about an old acquaintance

24a

whom the FBI agents believed had attempted to
enter the United States illegally.
70.

Two days later, Mr. Tanvir received a phone call
from Agent Tanzin. He was asked what people
in the Muslim community generally discussed,
and whether there was anything that he knew
about within the American Muslim community
that he “could share” with the FBI. Mr. Tanvir
said that he did not know of anything that would
concern law enforcement.

71.

In July 2008, Mr. Tanvir visited his wife and
family in Pakistan. In late December 2008, Mr.
Tanvir returned to New York. At the airport,
Mr. Tanvir was escorted by United States
government agents off the airplane.
Mr.
Tanvir’s baggage was searched, and he was
escorted by the agents to a waiting room where
he waited for five hours before the agents
confiscated his passport.
Mr. Tanvir was
eventually allowed to enter the United States,
but the government officials retained his
passport and gave him a January 28, 2009
appointment with DHS to pick it up.

72.

Shortly after this experience, FBI agents
resumed their attempts to recruit Mr. Tanvir to
work for them as an informant.

73.

On January 26, 2009, a few days before Mr.
Tanvir was scheduled to pick up his passport
from DHS, Agent Tanzin and another FBI
Special Agent, Defendant “John Doe #2,” came
to see Mr. Tanvir at his new workplace, a

25a

different store in Queens. The FBI agents asked
Mr. Tanvir to come with them to Manhattan.
74.

Mr. Tanvir agreed to accompany the agents, and
was driven by the agents from Queens to the
FBI’s New York offices at 26 Federal Plaza in
Manhattan.

75.

At 26 Federal Plaza, Mr. Tanvir was brought
into an interrogation room and questioned for
approximately an hour. The FBI agents asked
Mr. Tanvir about terrorist training camps near
the village where he was raised, and whether he
had any Taliban training. The agents also
referred to the fact that at his previous job as a
construction worker, Tanvir would rappel from
higher floors while other workers would cheer
him on. They asked him where he learned how
to climb ropes. Mr. Tanvir responded that he
never attended any training camps and did not
know the whereabouts of any such camps. He
also explained to the FBI agents that he grew up
in a rural area, where he regularly climbed trees
and developed rope-climbing skills.

76.

Towards the end of the interrogation, the FBI
agents told Mr. Tanvir they recognized that he
was “special,” “honest,” and “a hardworking
person.” They told him that they wanted him to
work for them as an informant. In particular,
the agents asked him to travel to Pakistan and
work as an informant. The agents offered Mr.
Tanvir incentives for his compliance with their
requests, such as facilitating his wife’s and

26a

family’s visits from Pakistan to the United
States, financially assisting his aging parents in
Pakistan to go on religious pilgrimage to Saudi
Arabia, and providing him with money.
77.

The incentives did not sway Mr. Tanvir, who
reiterated—again—that he did not want to
become an informant. In response, the FBI
agents threatened Mr. Tanvir, warning him that
if he declined to work as an informant, then he
would not receive his passport and that if he
tried to pick up his passport at the airport he
would be deported to Pakistan.

78.

Mr. Tanvir was terrified by the agents’ threats.
He cried and pleaded with the FBI agents not to
deport him because his family depended on him
financially. He also told them he had not done
anything wrong and was afraid to work in
Pakistan as a United States government
informant as it seemed like it would be a very
dangerous undertaking. The FBI agents replied
that they were willing to send him to
Afghanistan instead. Mr. Tanvir explained that
he was similarly concerned about his safety if he
were to become an informant in Afghanistan.
The FBI agents instructed him to think about it
and cautioned him not to repeat their discussion
with anyone.

79.

The next day, Agent Tanzin called Mr. Tanvir
and asked him whether he had thought more
about becoming an informant. Agent Tanzin
then threatened Mr. Tanvir, telling him that he

27a

would authorize the release of Mr. Tanvir’s
passport if Mr. Tanvir agreed to become an
informant, but if he did not, Mr. Tanvir would be
deported if he went to the airport to pick up his
passport. Mr. Tanvir told Agent Tanzin that
nothing had changed since they last spoke, and
again declined to work as an informant.
80.

On January 28, 2009, Mr. Tanvir nevertheless
headed to John F. Kennedy International
Airport to pick up his passport, accompanied by
his relatives. The DHS officials were asked why
they withheld his passport, and they replied that
it was due to an investigation that had since
been cleared.

81.

The next day, Agent Tanzin called Mr. Tanvir
and told him that he had facilitated the release of
Mr. Tanvir’s passport, having told “them” to
release his passport because Mr. Tanvir was
“cooperative” with the FBI.

82.

Mr. Tanvir’s repeated and consistent refusal to
work as an FBI informant did not stop the
agents from continuing to try to pressure him
into becoming an informant. Over the course of
the next three to four weeks, Mr. Tanvir received
multiple phone calls and visits from Agent
Tanzin and Agent John Doe #1 at his workplace.
At times, the agents would call from their car
outside Mr. Tanvir’s workplace and ask him to
meet them in the car.

83.

Mr. Tanvir left work and entered the agents’ car
the first three times he received their calls. The

28a

FBI agents repeatedly asked whether he had
decided to work for them as an informant, or
whether he had obtained any information for
them. The agents told Mr. Tanvir that they
wanted him to gather information, and that they
were specifically interested in people from the
“Desi” (South Asian) communities.
84.

Mr. Tanvir repeatedly told the FBI agents that if
he knew of any criminal activity he would tell
them, but that he would not become an
informant or seek out such information
proactively. Mr. Tanvir did not wish to work as
an informant, in part, because he had sincerely
held religious and personal objections to spying
on innocent members of his community. Mr.
Tanvir believed that if he agreed to become an
informant, he would be expected to engage with
people within his community in a deceptive
manner, monitor, and potentially entrap
innocent people, and that those actions would
interfere with the relationships he had developed
with those community members. Through their
repeated visits and calls, the FBI agents harassed
and intimidated Mr. Tanvir due to his refusal to
become an informant. The FBI agents placed
significant pressure on Mr. Tanvir to violate his
sincerely held religious beliefs, substantially
burdening his exercise of religion.

85.

Mr. Tanvir eventually reached out to a relative
for advice, and was told that, in the United
States, he was under no obligation to speak to
the government. Relieved to learn that he was

29a

not required to speak with the FBI agents every
time that they contacted him, Mr. Tanvir
stopped answering the agents’ phone calls.
86.

Eventually, Agent Tanzin and Agent John Doe
#2 again visited Mr. Tanvir at his workplace and
asked him why he was no longer answering their
phone calls. Mr. Tanvir explained that he had
answered all of their questions on multiple
occasions, that he no longer had anything to tell
them, and that he was busy with work and did
not wish to speak with them.

87.

Despite Mr. Tanvir’s clear refusal to speak to
them, the FBI agents then asked Mr. Tanvir to
take a polygraph test. Mr. Tanvir declined to
submit to the test, prompting the FBI agents to
threaten to arrest him. Mr. Tanvir responded
that if they arrested him, he would obtain an
attorney. The agents left without arresting Mr.
Tanvir.

88.

In July 2009, Mr. Tanvir traveled to Pakistan to
visit his wife and parents. While Mr. Tanvir was
abroad, Special Agents Tanzin and Defendant
“John Doe #3” visited his sister at her workplace
in Queens and questioned her about Mr.
Tanvir’s travel. The FBI agents wanted to know
why Mr. Tanvir had flown on Kuwait Airways
instead of Pakistan International Airlines. Mr.
Tanvir’s sister replied that Kuwait Airways was
less expensive, and told the FBI agents that she
was uncomfortable speaking with them.

30a

89.

Mr. Tanvir subsequently returned to the United
States in January 2010 and took a job as a truck
driver. Even though it required significant
travel, this work paid better than Mr. Tanvir’s
previous jobs. Mr. Tanvir’s new job required
him to drive trucks for long distances across the
United States and take flights back to New York
after completing the deliveries.

90.

Upon information and belief, Mr. Tanvir was
placed on the No Fly List by Agents Tanzin
and/or Defendants John Does #1–3 at some time
during or before October 2010 because he
refused to become an informant against his
community and refused to speak or associate
further with the agents.

91.

In October 2010, while Mr. Tanvir was in
Atlanta for work, he received word that his
mother was visiting New York from Pakistan.
Mr. Tanvir made plans to fly from Atlanta to
New York City. When he arrived at the check-in
counter at the Atlanta airport, airline officials
told him that he was not allowed to fly. Two
unknown FBI agents then approached Mr.
Tanvir at the airport and told him that he should
contact the FBI agents in New York with whom
Mr. Tanvir had originally spoken. The two
unknown FBI agents then drove Mr. Tanvir to a
nearby bus station where he boarded a bus
bound for New York City.

92.

While waiting in Atlanta for the bus, Mr. Tanvir
called Agent Tanzin, who told Mr. Tanvir that he

31a

was no longer assigned to Mr. Tanvir. Agent
Tanzin told Mr. Tanvir to “cooperate” with the
FBI agent who would be contacting him soon.
93.

Mr. Tanvir traveled by bus from Atlanta to his
home in New York.
This trip took him
approximately 24 hours.

94.

Two days after Mr. Tanvir returned to New York
City by bus, FBI Special Agent Sanya Garcia
called Mr. Tanvir and told him that she wanted
to speak with him. Agent Garcia stated that she
could help him get off the No Fly List if he met
with her and answered her questions. Mr.
Tanvir told Agent Garcia that he had answered
the FBI’s questions on multiple occasions and
that he would not answer additional questions or
meet with her.

95.

Mr. Tanvir subsequently quit his job as a truck
driver, in part because he was unable to fly back
to New York after completing long-distance,
one-way deliveries, as the job required.

96.

Upon information and belief, Agent Garcia knew
about the prior failed attempts by her colleagues,
Special Agents Tanzin and Defendants John Doe
#1-3, to recruit Mr. Tanvir as an informant, and
their subsequent placement of Mr. Tanvir on the
No Fly List in retaliation for his decision not to
become an informant.

97.

Mr. Tanvir filed a TRIP complaint on September
27, 2011.

32a

98.

In October 2011, Mr. Tanvir purchased plane
tickets to Pakistan for himself and his wife for
travel on November 3, 2011.

99.

On November 2, 2011, the day before Mr. Tanvir
and his wife were scheduled to fly, Agent Garcia
called Mr. Tanvir. She told him that he would
not be allowed to fly the next day. When Mr.
Tanvir asked why, Agent Garcia told him that it
was because he hung up on her the last time she
had tried to question him by phone, and she told
him that she still wanted to meet with him.

100.

Agent Garcia told Mr. Tanvir that she would
only allow him to fly to Pakistan if he met with
her and answered her questions. Because Mr.
Tanvir wanted to fly to Pakistan to visit his
ailing mother, he agreed to meet her and another
FBI Special Agent, Defendant John LNU, at a
restaurant in Corona, Queens.

101.

At the restaurant, Special Agents Garcia and
Defendant John LNU asked Mr. Tanvir the same
questions that Agents Tanzin, Defendants John
Doe #1, John Doe #2 and John Doe #3 had
already asked him on multiple occasions. These
included questions about his family and about
his religious and political beliefs. Mr. Tanvir
answered the agents’ questions because he
believed that he was required to do so in order to
be allowed to fly to Pakistan to see his mother.

102.

After the meeting, Special Agents Garcia and
John LNU advised Mr. Tanvir that they would
try to permit him to fly again by obtaining a

33a

one-time waiver that would enable him to visit
his ailing mother, but that it would take some
weeks for them to process the waiver. Agent
Garcia told Mr. Tanvir that he would only be
allowed to fly on Delta Airlines. When Mr.
Tanvir asked if he could keep his ticket on
Pakistan International Airlines, Agent Garcia
told him that would take her more time to
process. Agent Garcia also told Mr. Tanvir that
he would only be allowed to fly to Pakistan if he
agreed to meet with and speak to her upon his
return to the United States.
103.

Mr. Tanvir begged Agents Garcia and John LNU
to let him fly the next day with his wife. Agent
Garcia stated that he might be allowed to take
the flight, but that an FBI agent would have to
accompany him.

104.

The next day, however, Agent Garcia called Mr.
Tanvir and told him that he would not be
permitted to fly. She further stated that Mr.
Tanvir would not be allowed to fly in the future
until he agreed to come to FBI headquarters and
submit to a polygraph test. As a result, Mr.
Tanvir had to cancel his flight, obtaining only
partial credit from the airline for the ticket’s
price, and his wife traveled alone to Pakistan.

105.

At that point, Mr. Tanvir decided to retain
counsel to represent him in his interactions with
the FBI.

106.

Mr. Tanvir’s counsel reached out to Agents
Garcia and John LNU in the hope of facilitating

34a

the removal of Mr. Tanvir’s name from the No
Fly List, but the agents refused to speak with
counsel.
107.

The agents directed Mr. Tanvir’s counsel to legal
counsel at the FBI’s New York office. Mr.
Tanvir’s counsel spoke to counsel from that
office, who pointed them to the TRIP process.
Mr. Tanvir had already submitted a TRIP
complaint, and it had not led to any redress.

108.

Mr. Tanvir was not and is not a “known or
suspected terrorist” or a potential or actual
threat to civil aviation. The Special Agent
Defendants who dealt with Mr. Tanvir, including
Agent Tanzin and Agent Garcia, had no basis to
believe that Mr. Tanvir was a “known or
suspected terrorist” or potential or actual threat
to civil aviation. Had Mr. Tanvir actually
presented a threat to aviation safety, Agent
Garcia would not, and could not, have offered to
remove Mr. Tanvir from the List merely in
exchange for his willingness to become an
informant. Yet, knowing that Mr. Tanvir was
wrongfully placed on the No Fly List for his prior
refusals to become an informant, Agent Garcia
kept him on the No Fly List to retaliate against
Mr. Tanvir’s exercise of his constitutionally
protected rights and to coerce him into serving
as an informant.

109.

Mr. Tanvir again purchased a ticket to fly to
Pakistan on December 10, 2011 in the hope of
visiting his mother, whose health continued to

35a

deteriorate, but was again denied boarding at the
airport and was told that he was on the No Fly
List.
110.

On April 16, 2012, Mr. Tanvir received a
response to his TRIP complaint. The letter did
not confirm that Mr. Tanvir was on the No Fly
List, nor did it offer any justification for Mr.
Tanvir’s placement on the No Fly List. The
letter simply noted, in part, that “no changes or
corrections are warranted at this time.”

111.

On May 17, 2012, Mr. Tanvir’s counsel wrote to
FBI counsel again. The letter described Mr.
Tanvir’s predicament and the FBI’s retaliatory
actions. It also stated that Mr. Tanvir was
prepared to take legal action. To date, neither
Mr. Tanvir nor his counsel have received a
response to that letter from the FBI.

112.

On May 23, 2012, Mr. Tanvir appealed his TRIP
determination. Mr. Tanvir also requested the
releasable materials upon which his TRIP
determination was based.

113.

In November 2012, Mr. Tanvir purchased
another ticket from Saudi Arabian Airlines to
visit his sick mother in Pakistan. He was again
denied boarding at JFK airport on the day of his
flight. FBI Special Agent Janet Ambrisco
approached Mr. Tanvir and his counsel at the
check-in area and informed them that Mr.
Tanvir would not be removed from the No Fly
List until he met with Agent Garcia. Agent

36a

Ambrisco directed Tanvir to call Agent Garcia,
telling him that she was waiting for his call.
114.

On March 28, 2013, Mr. Tanvir received a letter
from DHS which noted that it superseded the
April 16, 2012 TRIP response. The letter stated,
in part, that Mr. Tanvir’s experience “was most
likely caused by a misidentification against a
government record or by random selection,” and
that the United States government had “made
updates” to its records. As a result, the letter
stated, Mr. Tanvir’s request for releasable
materials was moot and would not be processed
by DHS. The DHS letter did not state whether
Mr. Tanvir had been removed from the No Fly
List or whether he would now be permitted to
board flights.
DHS’s letter offered no
clarification on whether he had been granted a
temporary waiver permitting his travel on only
a single occasion. Mr. Tanvir decided to try to
attempt to travel once more and purchased
another ticket.

115.

On June 27, 2013, Mr. Tanvir boarded a flight
and flew to Pakistan on Pakistan International
Airlines. Mr. Tanvir does not know whether he
was able to fly to Pakistan due to a one-time
waiver by the agents or whether they have
finally removed him from the No Fly List.
Absent confirmation that he has been removed
from the No Fly List, Mr. Tanvir believes that
his name remains on it.

37a

116.

Mr. Tanvir’s placement on the No Fly List
caused him to quit his job as a truck driver and
prevented him from visiting his sick mother in
Pakistan. He continues to fear harassment by
FBI agents in the United States, which causes
him and his family great distress.

117.

Mr. Tanvir also suffered economic loss because of
his placement on the No Fly List, including but
not limited to loss of income and expenses and
fees related to the purchase of airline tickets.
Plaintiff Jameel Algibhah

118.

Plaintiff Jameel Algibhah is a United States
citizen who resides in the Bronx, New York. He
has lived in the United States since 1996, when
he was fourteen years old. He has been married
since 2001. His wife and three daughters, ages
eleven, eight, and six, live in Yemen. Prior to
being placed on the No Fly List in approximately
2010, Mr. Algibhah visited them at least once
every year for several months. Mr. Algibhah
does not pose, has never posed, and has never
been accused of posing, a threat to aviation
safety.

119.

On or around December 17, 2009, FBI Special
Agents Francisco “Frank” Artousa and
Defendant “John Doe #4” came to Mr.
Algibhah’s uncle’s store, where Mr. Algibhah
used to work, and asked for Mr. Algibhah.

120.

Mr. Algibhah came to the store to meet the
agents, and at their request he accompanied

38a

them to their van, where they proceeded to ask
him questions about his friends, his
acquaintances, other Muslim students who
attended his college, and the names of Muslim
friends with whom he worked at a hospital
library, one of several jobs he held as a college
student. The agents also asked Mr. Algibhah
where he worships on Fridays, and asked for
additional personal information. Despite being
deeply uncomfortable with the FBI agents’
questions, Mr. Algibhah answered them to the
best of his ability.
121.

The agents then asked Mr. Algibhah if he would
work for them as an informant. The agents first
asked Mr. Algibhah if he would become an
informant for the FBI, and infiltrate a mosque in
Queens. When Mr. Algibhah declined to do so,
the agents then asked Mr. Algibhah to
participate in certain online Islamic forums and
“act like an extremist.” When Mr. Algibhah
again declined, the agents asked Mr. Algibhah to
inform on his community in his neighborhood.
The FBI agents offered Mr. Algibhah money and
told him that they could bring his family from
Yemen to the United States very quickly if he
became an informant. Mr. Algibhah again told
the FBI agents that he would not become an
informant.

122.

Mr. Algibhah declined to work as an informant
because he believed that it was dangerous, and
because it violated his sincerely held personal
and religious beliefs. Mr. Algibhah was morally

39a

and religiously opposed to conducting
surveillance and reporting to the authorities on
the innocent activities of people in his American
Muslim community. Mr. Algibhah believed that
if he agreed to become an informant, he would be
expected to engage with his community members
in a deceptive manner, monitor, and entrap
innocent people, and that those actions would
interfere with the relationships he had developed
with those community members. The FBI
agents placed significant pressure on Mr.
Algibhah to violate his sincerely held religious
beliefs, substantially burdening his exercise of
religion.
123.

Despite Mr. Algibhah’s refusal, Agent Artousa
gave Mr. Algibhah his card, and told him to
“think about it some more.”

124.

Upon information and belief, Mr. Algibhah was
placed on the No Fly List by Agents Artousa and
Defendant John Doe #4 at some time after he
was first contacted by these FBI agents, because
he declined to become an informant against his
community and declined to speak or associate
further with the agents.

125.

The first time Mr. Algibhah tried to travel by air
after he refused the FBI’s efforts to recruit him
as an informant, he was denied boarding. On
May 4, 2010, Mr. Algibhah learned that he had
been placed on the No Fly List when he went to
John F. Kennedy International Airport to check
in with a travel companion for a flight to Yemen

40a

on Emirates Airlines. Mr. Algibhah intended to
visit his wife and three daughters in Yemen. At
the Emirates Airlines check-in counter, he was
denied boarding by airline personnel. Shortly
thereafter, numerous government officials came
to the check-in area and surrounded him. The
officials questioned Mr. Algibhah about his
travels to Yemen. Despite Mr. Algibhah’s
cooperation, and without informing him of any
basis for his interrogation, the officials told Mr.
Algibhah that he would not be able to board, and
directed him to the TRIP complaint process. The
person with whom Mr. Algibhah was traveling
has since distanced himself from Mr. Algibhah as
a direct result of the incident at the airport.
126.

Shortly after the incident at the airport, Mr.
Algibhah filed a TRIP complaint.

127.

Mr. Algibhah repeatedly followed up with the
DHS, calling the designated TRIP hotline several
times over the next months. After receiving no
response for several months, missing his wife
and children, Mr. Algibhah purchased another
ticket for a flight to Yemen on Emirates Airlines
on September 19, 2010. Again, he was prevented
from boarding the flight when he arrived at the
airport, and was not provided with any reason.

128.

DHS responded to Mr. Algibhah’s TRIP
complaint in a letter dated October 28, 2010.
The letter stated that a review has been
performed and that “it has been determined that
no changes or corrections are warranted at this

41a

time.” The letter did not provide Mr. Algibhah
with any information about whether or not he
was on the No Fly List, or what basis existed for
such a restriction on his constitutional right to
travel.
129.

On November 12, 2010, Mr. Algibhah submitted
a request for the releasable materials upon which
his TRIP determination was made in order to
enable him to file an appeal.

130.

After submitting this request, Mr. Algibhah did
not hear back from DHS. Mr. Algibhah sent
several letters to officials at DHS, but did not
receive a response. In January 2012, frustrated
by the lack of response from the authorities
through the TRIP process and by his continued
inability to fly, Mr. Algibhah sought help from
his elected representatives. The offices of United
States Congressman Jose E. Serrano and
Senator Charles Schumer each reached out to
the TSA on Mr. Algibhah’s behalf. As of the date
of this Amended Complaint, Mr. Algibhah has
not yet received a response from TRIP regarding
his request.

131.

In June 2012, Agent Artousa and a new FBI
agent, Defendant “John Doe #5,” stopped Mr.
Algibhah while he was driving his car told him
they wanted to speak with him. Mr. Algibhah
told Agent Artousa that after the last time that
Agent Artousa questioned him, Mr. Algibhah had
been placed on the No Fly List. Agent Artousa
denied placing Mr. Algibhah on the No Fly List,

42a

but informed Mr. Algibhah that he would take
Mr. Algibhah off of the No Fly List in one week’s
time should their present conversation “go well”
and should Mr. Algibhah work for them. John
Doe #5 told Mr. Algibhah that “the Congressmen
can’t do shit for you; we’re the only ones who
can take you off the list.”
132.

Mr. Algibhah answered the agents’ questions
because he believed he was required to do so in
order to have his name removed from the No Fly
List. Agents Artousa and John Doe #5 asked Mr.
Algibhah questions about his religious practices,
his community, his family, his political beliefs,
and the names of websites he visited. They
asked him where he went to mosque and asked
him about the types of people who go to his
mosque.
They also asked him specific
information, such as whether he knew people
from the region of Hadhramut in Yemen.

133.

After this interrogation, the FBI agents again
told Mr. Algibhah that they wanted him to access
some Islamic websites for them. They asked for
his e-mail address and told him that they would
provide him with the names of websites, and that
he would need to access them and “act
extremist.” Mr. Algibhah understood these
requests to be conditions that he needed to
satisfy to have his name removed from the No
Fly List.

134.

In order to end the lengthy and intimidating
interaction with the FBI agents, Mr. Algibhah

43a

told the agents that he needed time to consider
their request that he work as an informant. Mr.
Algibhah did not want to become an informant,
but in the hope of being removed from the No
Fly List, he assured the agents that he would
work for them as soon as they took him off the
No Fly List. Agent Artousa responded that he
“didn’t need to worry,” removing his name
would only take one week. Approximately ten
days later, Agent Artousa called Mr. Algibhah
and told him that he was working on removing
Mr. Algibhah’s name from the No Fly List, but
that it would take a month or more to do so and
that he would have to meet with Mr. Algibhah
one more time. Agent Artousa reiterated that it
would be very helpful if Mr. Algibhah decided to
become an informant. Agent Artousa also told
Mr. Algibhah that only the FBI could remove his
name from the No Fly List. Mr. Algibhah told
Agent Artousa to call before he came, but Agent
Artousa neither called nor ever came.
135.

Mr. Algibhah was not and is not a “known or
suspected terrorist” or a potential or actual
threat to civil aviation. The Special Agent
Defendants who dealt with Mr. Algibhah,
including Artousa and John Doe #5, had no basis
to believe that Mr. Algibhah was a “known or
suspected terrorist” or potential or actual threat
to civil aviation. Had Mr. Algibhah actually
presented a threat to aviation safety, Agents
Artousa and John Doe #5 would not, and could
not, have offered to remove Mr. Algibhah from

44a

the List merely in exchange for his willingness to
become an informant. Yet, knowing that Mr.
Algibhah was wrongfully placed on the No Fly
List, Agents Artousa and Defendant John Doe
#5, kept him on the No Fly List to retaliate
against Mr. Algibhah’s exercise of his
constitutionally protected rights and to coerce
him into becoming an informant.
136.

After this third attempt by the FBI agents to use
the No Fly List to coerce him into becoming an
informant, Mr. Algibhah retained legal counsel
in late June 2012. His counsel spoke to Agent
Artousa that month, who confirmed that the FBI
could be “of assistance” in removing Mr.
Algibhah from the No Fly List, and mentioned
again that he wanted Mr. Algibhah to go on
Islamic websites, looking for “radical, extremist
types of discussions,” and “perhaps more
aggressive information gathering.”

137.

On or about August 28, 2012, Mr. Algibhah’s
neighbor was visited by the FBI and asked about
Mr. Algibhah. FBI agents also went to two
stores in his neighborhood asking about Mr.
Algibhah.

138.

In November 2012, Mr. Algibhah, through his
counsel, informed Agent Artousa that he would
only speak with the FBI on the condition that he
be removed from the No Fly List and allowed to
travel to Yemen. In response, Agent Artousa
said that he would speak with his supervisors to

45a

look into this possibility and would inform Mr.
Algibhah’s counsel of their response.
139.

FBI Agent Artousa did not immediately respond
to Mr. Algibhah’s request via his counsel. Mr.
Algibhah did not hear from the FBI for
approximately six to seven months. On or about
May 29, 2013, Agent Artousa again reached out
to Mr. Algibhah, telling him that Agent Artousa
was still interested in helping Mr. Algibhah get
off the No Fly List and that he wanted to meet
with him. Mr. Algibhah told Agent Artousa that
he should contact Mr. Algibhah’s counsel about
the matter.

140.

That same day, Mr. Algibhah’s counsel reached
out to Agent Artousa, who informed counsel that
he was simply reaching out to Mr. Algibhah to
“touch base” regarding the matters he had
previously discussed with him. Agent Artousa
stated he was still interested in speaking with
Mr. Algibhah. Counsel asked Agent Artousa
whether there were any developments on Mr.
Algibhah’s case that triggered this renewed
attempt at questioning. The agent replied that
there was none, reiterating that Mr. Algibhah
was not in any trouble, and that he was trying to
bring the matter to a conclusion.

141.

Mr. Algibhah has not heard from Agent Artousa
since. Mr. Algibhah believes that he remains on
the No Fly List.

142.

On multiple occasions over the course of the past
few years, Mr. Algibhah’s American Muslim

46a

relatives and acquaintances have reported to him
that they have been approached by government
agents, including FBI agents, at their places of
work or at the airport, and extensively
questioned about Mr. Algibhah. This has caused
Mr. Algibhah to be viewed in his community as
someone targeted by law enforcement, resulting
in his alienation, stigmatization, and loss of
employment. Since the FBI’s attempts to recruit
Mr. Algibhah as an informant, members of Mr.
Algibhah’s community have taken to distancing
themselves from him. In turn, Mr. Algibhah has
also distanced himself from Muslim
organizations, from his mosque and from many
in his community. He no longer speaks with
people in his mosque or his community because
he is worried that they will report what he says
to the FBI.
143.

Mr. Algibhah, who is very close to his daughters
and wife, typically visited them in Yemen at least
once every year. Mr. Algibhah has not seen his
family since April or May 2009, the last time he
was able to travel to Yemen successfully. He has
attempted to fly to Yemen two times since then,
and has been denied boarding each time. Upon
information and belief, Mr. Algibhah remains on
the No Fly List.

144.

Mr. Algibhah’s placement on the No Fly List has
caused him severe emotional distress. Mr.
Algibhah has also suffered economic loss because
of his placement on the No Fly List, including

47a

but not limited to loss of income and expenses
and fees related to the purchase of airline tickets.
Plaintiff Naveed Shinwari
145.

Plaintiff Naveed Shinwari is a lawful permanent
resident of the United States and has lived in the
United States since 1998, when he was 14 years
old.
He currently lives in West Haven,
Connecticut. Mr. Shinwari has been married
since January 2012.
His wife resides in
Afghanistan. Mr. Shinwari earned a Bachelor of
Science degree from Southern Connecticut State
University in Public Health in May 2008. He has
worked for a temp agency, placed on assignment
in North Haven, Connecticut, since April 2013.
Mr. Shinwari has never been convicted of a crime
or arrested. Mr. Shinwari does not pose, has
never posed, and has never been accused of
posing, a threat to aviation safety.

146.

On February 26, 2012, after getting married in
Afghanistan, Mr. Shinwari was traveling with his
mother, who is a United States citizen, back
home to the United States. They flew from
Kabul, Afghanistan to Dubai, United Arab
Emirates en route to Omaha, Nebraska, where
they were residing at the time. They flew from
Kabul to Dubai but were then prevented from
boarding their connecting Emirates Airlines
flight to Houston, Texas. Airport security
officials confiscated Mr. Shinwari’s Afghan
passport and instructed him to wait in the
terminal. After several hours of waiting, airport

48a

security officials returned the passport and told
Mr. Shinwari that he needed to visit the United
States embassy before he would be allowed to fly.
147.

That night, after Mr. Shinwari and his mother
obtained temporary visas to stay in the United
Arab Emirates and checked into a Dubai hotel,
Mr. Shinwari received a phone call from FBI
Special Agent Steven LNU. Agent Steven LNU
told Mr. Shinwari to meet him the next day at
the United States consulate in Dubai.

148.

The next day, February 27, 2012, Mr. Shinwari
went to the consulate. When he arrived, Agent
Steven LNU and FBI Special Agent John C.
Harley III took Mr. Shinwari into an
interrogation room, and instructed Mr. Shinwari
to “tell [them] everything.” Mr. Shinwari replied
he had no idea why he had been prevented from
flying.
Agents Harley and Steven LNU
proceeded to interrogate Mr. Shinwari for three
to four hours. Agents Harley and Steven LNU
asked Mr. Shinwari whether he had associated
with any “bad guys” while in Afghanistan,
whether he had visited any training camps,
where he had stayed during his trip, and whether
he had traveled to Pakistan. The agents also
asked Mr. Shinwari about his religious activities,
including which mosque he attends, and more
general questions about his origin and
background. During the interrogation, the
agents sometimes used language that Mr.
Shinwari found threatening, and at times Mr.
Shinwari felt coerced to speak. Believing that he

49a

had to provide the agents information in order to
return to the United States, Mr. Shinwari
answered all of the agents’ questions. Mr.
Shinwari provided documents to Agents Harley
and Steven LNU, including his driver’s license
and other identification papers, which the agents
photocopied.
149.

At several points during the interrogation,
Agents Harley and Steven LNU asked Mr.
Shinwari to take a lie detector test. They said
that if he took the test, it would help him to be
able to return home to the United States. Mr.
Shinwari declined to take the test, believing he
had already been truthful in his answers.

150.

At the end of the interrogation, Agents Harley
and Steven LNU said they needed to confer with
“higher-ups in [Washington] D.C.” before
allowing Mr. Shinwari to fly back to the United
States. Mr. Shinwari returned to his hotel,
where he faxed and e-mailed the agents several
more documents that they had requested,
including his marriage certificate, information
about the group of people with whom he had
traveled, and the locations where he stayed
during his trip to Afghanistan.

151.

Mr. Shinwari and his mother waited in Dubai for
two more days, not knowing if they would be
permitted to return home. Finally, on February
29, 2012, Agent Harley e-mailed Mr. Shinwari to
inform him that they had received the
“go-ahead” for him to fly home to the United

50a

States, but only if he flew on a United
States-based airline. That day, Mr. Shinwari was
able to purchase a ticket and, on March 1, 2012,
he boarded an American Airlines flight from
Dubai to the United States with his mother.
152.

When Mr. Shinwari and his mother arrived at
Dulles International Airport, in Virginia, United
States Customs and Border Protection agents
thoroughly searched his bags and belongings.
Following this additional screening, two FBI
special agents from the FBI’s Omaha field
office—Michael LNU and Gregg
Grossoehmig—approached Mr. Shinwari at
Dulles International Airport and escorted him to
an interrogation room.

153.

Mr. Shinwari was then subjected to additional
interrogation.
Agents Michael LNU and
Grossoehmig interrogated Mr. Shinwari for two
hours at Dulles. The FBI agents asked Mr.
Shinwari substantially the same questions that
he was asked in Dubai by Agents Harley and
Steven LNU. Specifically, Agents Michael LNU
and Grossoehmig said that they wanted to
“verify” everything that he told Agents Harley
and Steven LNU in Dubai. The agents told Mr.
Shinwari that FBI agents would visit him when
he returned to Omaha.

154.

As a result of these interrogations by Agents
Harley, Steven LNU, Michael LNU and Gregg
Grossoehmig, Mr. Shinwari and his mother
arrived in Omaha on March 2, 2012, six days

51a

later than expected, having missed the flights for
which they had paid. Mr. Shinwari has not been
reimbursed for the cost of booking these
additional flights.
155.

Approximately one week after he returned home
to Omaha, Agent Michael LNU, the same agent
who interrogated Mr. Shinwari at Dulles
International Airport, and FBI Special Agent
John Doe #6, appeared at Mr. Shinwari’s home.
Over the course of an hour, they subjected him
to questions similar to the ones posed in his prior
interrogations.
Mr. Shinwari truthfully
answered these questions again.

156.

In addition to questioning Mr. Shinwari, Agents
Michael LNU and John Doe #6 said that they
knew Mr. Shinwari was unemployed and would
pay him if he became an informant for the FBI.
Mr. Shinwari understood from the context of the
questioning that the agents wanted him to
inform on the American Muslim community in
Omaha, American Muslim communities in other
parts of the United States, and Muslims in other
countries. Mr. Shinwari told the agents that he
would not act as an informant.

157.

Mr. Shinwari declined to work as an informant
because he believed that it was dangerous, and
because it violated his sincerely held personal
and religious beliefs. Mr. Shinwari was morally
and religiously opposed to conducting
surveillance and reporting to the authorities on
the innocent activities of people in his American

52a

Muslim community. Mr. Shinwari believed that
if he agreed to become an informant, he would be
expected to engage with his community members
in a deceptive manner, monitor, and entrap
innocent people, and that those actions would
interfere with the relationships he had developed
with those community members. The FBI
agents placed significant pressure on Mr.
Shinwari to violate his sincerely held religious
beliefs, substantially burdening his exercise of
religion.
158.

On March 11, 2012, Mr. Shinwari attempted to
obtain a boarding pass at Eppley Airfield for a
flight from Omaha to Orlando, where he had
obtained a temporary job, but was told by an
airline agent that his ticket could not be
processed. Police officers then approached Mr.
Shinwari while he was standing at the ticket
counter and told him that he was on the No Fly
List. The officers then escorted Mr. Shinwari
out of the airport.

159.

Upon information and belief, Mr. Shinwari was
placed and/or maintained on the No Fly List
because he refused the FBI’s requests to work as
an informant for them against members of his
community.

160.

Mr. Shinwari’s placement on the No Fly List
greatly distressed him and upended his life. Mr.
Shinwari was unable to take the job in Orlando,
and consequently was unable to pay his bills. In
addition, Mr. Shinwari’s placement on the No

53a

Fly List meant that he could no longer visit his
wife and extended family—grandparents, seven
uncles, six aunts, cousins, and in-laws—in
Afghanistan, nor his father, who suffers from
heart disease, in Virginia.
161.

On March 12, 2012, Mr. Shinwari sent an e-mail
to Agent Harley seeking help in getting removed
from the No Fly List. Agent Harley did not
respond. The following day, March 13, 2012,
Agents Michael LNU and John Doe #6 again
visited Mr. Shinwari at his home in Omaha. Mr.
Shinwari again understood the FBI agents to be
asking him to become a confidential FBI
informant, and again offering him financial
compensation. Agents Michael LNU and John
Doe #6 also offered to “help” Mr. Shinwari if he
agreed to become an informant, stating in words
or substance: “The more you help us, the more
we can help you.” Mr. Shinwari understood the
agents were suggesting that, in exchange for
agreeing to become an informant, they would
remove him from the No Fly List. Despite being
mired in financial difficulties and wanting to be
removed from the No Fly List, Mr. Shinwari
would not agree to become an informant. He
told the agents that he believed becoming an
informant would put his family in danger. Mr.
Shinwari also told the agents that if he had any
knowledge about dangerous individuals, he
would report that to the FBI and did not need
any financial incentives to do so.

54a

162.

Following this encounter, Mr. Shinwari
contacted counsel in Omaha for help in getting
off of the No Fly List. On or about March 21,
2012, Mr. Shinwari and his counsel met with
Special Agent in Charge Weysan Dun and
Assistant Special Agent in Charge James C.
Langenberg at the FBI’s Omaha Division.

163.

Agents Dun and Langenberg began the meeting
by asking Mr. Shinwari to think about the
reasons why he may have been placed on a watch
list. Mr. Shinwari said that he did not know.
The agents then asked Mr. Shinwari about
videos of religious sermons that he had watched
on the internet. Mr. Shinwari responded that he
watched the videos to educate himself about his
faith.

164.

Following this line of questioning, Agents Dun
and Langenberg refused to confirm or deny his
No Fly List status but told him that he could
potentially get a one-time waiver to travel in an
emergency. Mr. Shinwari believed the agents
offered him the waiver in exchange for all of the
information he had provided them about himself.
Mr. Shinwari believed the offer of a waiver was
provided as a “reward” for his agreement to
submit to questioning and to encourage him to
provide more information.

165.

On March 18, 2013, Mr. Shinwari sent Agent
Langenberg an e-mail asking about whether he
could obtain a waiver to fly to Afghanistan.
Agent Langenberg never replied.

55a

166.

Mr. Shinwari was not and is not a “known or
suspected terrorist” or a potential or actual
threat to civil aviation. The Special Agents who
dealt with Mr. Shinwari had no basis to believe
that Mr. Shinwari was a “known or suspected
terrorist” or potential or actual threat to civil
aviation. Had Mr. Shinwari actually presented a
threat to aviation safety, Agents Michael LNU
and John Doe #6 would not, and could not, have
offered to remove Mr. Shinwari from the List
merely in exchange for his willingness to become
an informant. Yet, knowing that Mr. Shinwari
was wrongfully placed on the No Fly List, the
Special Agents who interacted with Mr. Shinwari
kept him on the No Fly List in order to retaliate
against Mr. Shinwari’s exercise of his
constitutionally protected rights and to coerce
him into becoming an informant.

167.

Mr. Shinwari filed a TRIP complaint on
February 26, 2012. DHS responded to Mr.
Shinwari’s TRIP complaint almost fifteen
months later in a letter dated June 4, 2013. The
letter did not confirm that Mr. Shinwari was on
the No Fly List, nor did it offer any justification
for Mr. Shinwari’s placement on the No Fly List.
The letter stated, in part, that “no changes or
corrections are warranted at this time.”

168.

Mr. Shinwari filed a second TRIP complaint on
December 9, 2013. DHS responded to Mr.
Shinwari’s TRIP complaint in a letter dated
December 24, 2013. The letter stated, in part,
that Mr. Shinwari’s experience “was most likely

56a

caused by a misidentification against a
government record or by random selection,” and
that the United States government had “made
updates” to its records. The DHS letter did not
state whether Mr. Shinwari had been removed
from the No Fly List or whether he would now
be permitted to board flights. DHS’s letter
offered no clarification on whether he had been
granted a temporary waiver permitting his travel
on only a single occasion.
169.

On March 19, 2014, for the first time since
returning to the United States from Kabul,
Afghanistan in March 2012, Mr. Shinwari was
able to board a flight, and he flew from Hartford,
Connecticut to Omaha, Nebraska and returned
on March 31. This is the first time Mr. Shinwari
had attempted to fly since being denied a
boarding pass on March 11, 2012. Mr. Shinwari
does not know whether he remains on the No Fly
List and he fears further harassment and
retaliation by government agents.
Absent
confirmation that he has been removed from the
No Fly List, Mr. Shinwari believes that his name
remains on it.

170.

Mr. Shinwari’s placement on the No Fly List
prevented him from visiting his wife,
grandparents, uncle and extended family in
Afghanistan since February 2012, causing him
great personal distress and emotional trauma.
Mr. Shinwari’s placement on the List also made
it difficult for him to travel to Virginia to visit his
father, who suffers from heart disease. Finally,

57a

his placement on the No Fly List prevented Mr.
Shinwari from obtaining employment in
Orlando.
171.

Mr. Shinwari suffered economic loss because of
his placement on the No Fly List, including but
not limited to the loss of expected employment
income from his job in Orlando, and
approximately $4,000 in expenses and fees
related to the purchase of airline tickets and
booking of hotel rooms. In addition, because of
the harassment and retaliation he has suffered at
the hands of government agents, Mr. Shinwari is
reluctant to attend religious services, attending
his local mosque less frequently, and to share his
religious and political views with others.
Plaintiff Awais Sajjad

172.

Plaintiff Awais Sajjad is a lawful permanent
resident of the United States, and has resided in
the United States in Brooklyn, New York since
May 2009 and sometimes stays at his sister’s
home in New Jersey to be closer to work. Upon
arriving in the United States, Mr. Sajjad
obtained a certificate in medical assistance. He
now works twelve-hour shifts at a convenience
store while also caring for his brother-in law, a
cancer patient. Mr. Sajjad has never been
convicted of a crime or arrested. He does not
pose, has never posed, and has never been
accused of posing, a threat to aviation safety.

173.

On September 14, 2012, Mr. Sajjad attempted to
board a Pakistan International Airlines flight

58a

from John F. Kennedy International Airport in
order to visit his ailing father and his 91-year old
grandmother in Pakistan. At the check-in
counter, the airline official spoke with someone
on the phone and provided Mr. Sajjad’s passport
information and description. Shortly thereafter,
two FBI agents, John Doe #7 and John Doe #8
approached Mr. Sajjad at the counter.
174.

Mr. Sajjad felt embarrassed and ashamed
because the other passengers could see that he
was the subject of law enforcement attention.
He felt that they were staring at him.

175.

Agents Doe #7 and Doe #8 asked Mr. Sajjad to
accompany them to a small, windowless
interrogation room. They told him that if he
spoke with their supervisor, he might allow Mr.
Sajjad to board his flight as there was still some
time before the flight’s departure. The agents
assured Mr. Sajjad that they would try to help
him if he went with them.

176.

In the back room, Mr. Sajjad was introduced to
a plainclothes FBI supervisory special agent,
John Doe #9, and a uniformed DHS special
agent, John Doe #10. Agent John Doe #9
informed Mr. Sajjad that he would not be
allowed to travel because he was on the No-Fly
List. The FBI supervisory special agent, John
Doe #9, questioned Mr. Sajjad extensively about
his background, friends, and family. They asked
Mr. Sajjad who accompanied him to the airport
that day, and asked for their phone numbers.

59a

They asked him for his best friends’ names, and
whether he had any girlfriends. He was asked
whether he had any military training or ever
sought to enlist for terrorism training. Mr.
Sajjad answered all of their questions truthfully.
He told them he had never had any kind of
training and had never been in trouble with the
law. Mr. Sajjad was then told that if he wished
to have his name removed from the No Fly List,
he would have to file a TRIP complaint.
177.

During the interrogation, Agents John Doe #7-10
repeatedly reassured Mr. Sajjad that they would
be willing to help him get off the No Fly List and
gave him the impression that such assistance
would be provided if he agreed to their requests.

178.

On September 14, 2012, the same day that he
was denied boarding, Mr. Sajjad filed a TRIP
complaint.

179.

On approximately October 24, 2012, Defendant
FBI Agent Michael Rutkowski, accompanied by
Agent “John Doe #11” and an interpreter,
visited Mr. Sajjad’s sister’s house in New Jersey,
when Mr. Sajjad returned from work. The FBI
agents said that they were following up on Mr.
Sajjad’s TRIP complaint.
Mr. Sajjad was
relieved, believing that he would be removed
from the No Fly List. Mr. Sajjad allowed the
agents to enter his home. Once inside Mr.
Sajjad’s home, the agents asked Mr. Sajjad many
questions, including questions about his last trip
to Pakistan in 2011, why he went and which

60a

cities he visited on that trip. Mr. Sajjad replied
that he went to Pakistan to attend his brother’s
wedding.
180.

While still at Mr. Sajjad’s house, Agents
Rutkowski and John Doe #11 told Mr. Sajjad
that because he was a good man from a good
family, they wanted him to work for them, in
exchange for which they could provide him with
United States citizenship and a salary. Mr.
Sajjad declined their offer to work for the FBI,
replying that he did not need any assistance from
the FBI—he had a job that paid him enough and
would soon be eligible for citizenship.

181.

Mr. Sajjad understood that Agents Rutkowski
and John Doe #11 were asking him to work as an
informant for the FBI, and declined to do so
because he believed it was dangerous and
because he was opposed to conducting
surveillance on the innocent activities of people
in his American Muslim community and
reporting that information to the authorities.
Mr. Sajjad believed that if he agreed to work for
the FBI, he would be expected to act as an
informant in his community and engage with
others in a deceptive manner to monitor and
entrap them and that those actions would
interfere with the relationships that he had
developed with those community members.

182.

Agents Rutkowski and John Doe #11 then asked
Mr. Sajjad to go with them to the FBI
headquarters in Newark, New Jersey to undergo

61a

a polygraph test. The agents assured Mr. Sajjad
that taking the polygraph test would help
remove his name from the No Fly List. Although
he did not know what a polygraph test was, Mr.
Sajjad agreed to accompany the agents because
he believed that the polygraph test was part of
their investigation into his TRIP complaint and
completing it was necessary to have his name
removed from the No Fly List.
183.

Agents Rutkowski and John Doe #11 drove Mr.
Sajjad to the FBI headquarters in Newark. On
the way, they asked Sajjad whether he had
watched bomb-making videos on YouTube, to
which he replied that he had not, that he only
watches movies and music videos. The agents
also asked Mr. Sajjad questions about his job and
salary, and whether Mr. Sajjad believed he made
enough money.

184.

At the FBI headquarters, another FBI agent,
“John Doe #12,” conducted the polygraph
examination on Mr. Sajjad through a translator.
Mr. Sajjad was very frightened. He did not know
what a polygraph test was. They attached
multiple wires to different parts of his body. He
was told to remain very still and not even move
his eyes, and to answer their questions. They
then asked him many questions, including
whether he loved the United States of America,
whether he loved Pakistan and whether he
would ever do anything that might bring shame
to his family. They also asked whether he had
signed up for or taken military training in

62a

Pakistan and whether he had ever used any
guns. Mr. Sajjad replied, truthfully, that he had
never done so.
185.

After an hour of questions, Agent John Doe #12
stepped out of the room and returned with
Agents Rutkowski and John Doe #11. They told
Mr. Sajjad that the machine detected that he was
lying. Mr. Sajjad replied that he was not lying.
Agent John Doe #11 responded that if Mr. Sajjad
did not provide answers, they would be forced to
“use alternative methods.” Mr. Sajjad replied
that his answers were truthful and would not
change no matter what methods the agents used.

186.

Agent Rutkowski and Agent John Doe #11
proceeded to interrogate Mr. Sajjad for
approximately three more hours.

187.

The agents then drove Mr. Sajjad to his sister’s
home in New Jersey. In the car, Agent
Rutkowski apologized for taking Mr. Sajjad’s
time and engaged him in conversation, but also
continued to question him, including inquiries
about his religious practices, what mosque he
attends, and whether the United States or
Pakistan would win if the two countries
competed in cricket or soccer.

188.

At some time over the next several weeks, Agent
Rutkowski and an unidentified FBI agent went
to Mr. Sajjad’s sister’s home in Jersey City and
questioned her about Mr. Sajjad. In addition,
unknown agents from the United States
Embassy in Islamabad contacted Mr. Sajjad’s

63a

father in Pakistan and asked that he come to the
embassy to answer questions about Mr. Sajjad.
Mr. Sajjad’s father declined. Mr. Sajjad’s father
was told that he would be questioned once he
arrived in the United States. Mr. Sajjad’s father
arrived at John F. Kennedy airport on November
2, 2013. Approximately 15 days later, Agent
Rutkowski and an unidentified FBI agent came
to Mr. Sajjad’s sister’s house to question Mr.
Sajjad’s father.
189.

On December 5, 2012, Mr. Sajjad received a
response to his TRIP complaint. The response
stated that after consulting with other federal
agencies “no changes or corrections [in his
status] are warranted at this time.”

190.

In January 2013, Mr. Sajjad retained counsel to
represent him in his interactions with the FBI
and to assist him in clearing his name from the
No Fly List. On February 8, 2013, through
counsel, Mr. Sajjad filed a TRIP appeal.

191.

On March 13, 2013, Mr. Sajjad’s counsel called
Agent Rutkowski. Agent Rutkowski said that if
Mr. Sajjad wanted the FBI to help him get off the
No Fly List, he would have to answer the FBI’s
questions, including the ones Mr. Sajjad allegedly
failed on the polygraph exam, but he would not
specify which questions those were. Mr. Sajjad
declined to submit to additional questioning. On
May 6, 2013, Mr. Sajjad’s counsel spoke to FBI
Agent Rutkowski’s supervisor, William Gale,
over the phone. When asked if the agency was

64a

contacting Mr. Sajjad because they wanted to
recruit him as an informant, Agent Gale
responded that he “would not get into it over the
phone,” and that should not be construed as a
“yes” or a “no.”
192.

On April 4, 2014, FBI Agent Rutkowski and an
unknown agent “John Doe #13” approached Mr.
Sajjad while he was standing outside his sister’s
home in New Jersey, and asked Mr. Sajjad to
accompany them to a nearby diner in their car.
The agents told Mr. Sajjad that they were here to
help him and talk about his situation. Taken by
surprise, Mr. Sajjad felt pressured to comply. At
the diner, the agents told Mr. Sajjad that they
wanted to help him travel to Pakistan, but that
unless he helped them, they could not do
anything for him. They asked him hypothetical
questions regarding what he would do if he were
to find out that any of his relatives or friends
were involved in a terrorist attack. When Mr.
Sajjad responded that he would inform the
police, they accused him of only telling them
what he thought they wanted to hear. Agent
John Doe #13 told Mr. Sajjad to “shut up” and
said he did not believe what Mr. Sajjad was
saying. The agents also questioned Mr. Sajjad
about his religious practices, asking him where
he prays, whether his father is religious, whether
his deceased mother was religious, and whether
Mr. Sajjad considered himself to be a Wahhabi
Muslim.

65a

193.

The agents repeatedly insisted that the only way
Mr. Sajjad would get off the No Fly List and be
able to travel to Pakistan was if he answered all
of the agents’ questions, and they reminded him
that they had the power to decide if he was on
the No Fly List. Mr. Sajjad said that he was
trying to be helpful by coming with the agents.
Agent John Doe #13 told Mr. Sajjad that he had
no choice but to come with the agents when they
asked. Finally, the agents told Mr. Sajjad that
they would return on the following Monday to
subject him to another polygraph examination,
and that in the meantime, they expected him to
ask his friends and relatives if any of them had
an affiliation with a Pakistani organization that
the United States had designated as a foreign
terrorist group. During the conversation, Agent
John Doe #13 told Mr. Sajjad that he had been
watching Mr. Sajjad for the last two years and
knew that Mr. Sajjad did not do anything wrong
and was not a “terrorist” or a threat to America.

194.

During this lengthy encounter, Mr. Sajjad
answered the agents’ questions because he felt
obligated to do so. Mr. Sajjad was frightened by
the agents, and told them so.

195.

Mr. Sajjad was not and is not a “known or
suspected terrorist” or a potential or actual
threat to civil aviation. Agents Rutkowski and
John Does #7-13 had no basis to believe that Mr.
Sajjad was a “known or suspected terrorist” or a
potential or actual threat to civil aviation. Had
Mr. Sajjad actually presented a grave threat to

66a

aviation safety, Agents Rutkowski and John
Does #7-13 would not, and could not, have
offered to remove him from the List merely in
exchange for his taking and passing a polygraph
test and working as an FBI informant. Yet,
knowing that Mr. Sajjad was wrongfully placed
on the No Fly List, Agents Rutkowski and John
Does #7-13 kept him on the No Fly List in order
to pressure and coerce Mr. Sajjad to become an
FBI informant and, when he refused, used the
No Fly List to retaliate against Mr. Sajjad’s
exercise of his constitutionally protected rights.
Upon information and belief, Mr. Sajjad remains
on the No Fly List.
196.

Since Mr. Sajjad’s placement on the No Fly List,
he has been unable to visit his family, including
his 93-year old grandmother who raised him
after his mother passed away, and with whom he
is very close. Because of his brother-in-law’s
serious illness, Mr. Sajjad needs to be able to
travel to assist with the family’s affairs. The FBI
agents’ ongoing attempts to question Mr. Sajjad,
combined with his continued placement on the
No Fly List have caused Mr. Sajjad significant
and ongoing anxiety and distress.

67a

CAUSES OF ACTION
FIRST CLAIM FOR RELIEF
Retaliation in Violation of Plaintiffs’
First Amendment Rights
(Against Agency Defendants in their official
capacities and Special Agent Defendants in
their individual capacities and official
capacities)
197.

Plaintiffs Muhammad Tanvir, Jameel Algibhah,
Naveed Shinwari, and Awais Sajjad incorporate
by reference each and every allegation contained
in the paragraphs above.

198.

Plaintiffs are present or have the legal right to be
present in the United States.

199.

Plaintiffs each met with Special Agent
Defendants in the hope of being removed from
the No Fly List and Special Agent Defendants
used the No Fly List to attempt to pressure
Plaintiffs to sacrifice their First Amendment
rights. When Special Agent Defendants asked
Plaintiffs to become informants, Plaintiffs
refused.

200.

By declining to act as informants within their
communities, Plaintiffs repeatedly and validly
exercised their First Amendment rights to
freedom of speech and association. By declining
to become informants on the basis of deeply held
religious beliefs, Plaintiffs Tanvir, Algibhah, and

68a

Shinwari repeatedly and validly exercised their
First Amendment right to freedom of religion.
201.

Rather than using the No Fly List as they were
authorized to do—to restrict the travel of
individuals who are a genuine threat to aviation
safety—Special Agent Defendants knowingly,
intentionally, and unlawfully placed Plaintiffs on
the No Fly List, or maintained Plaintiffs on the
No Fly List, because Plaintiffs refused to act as
informants. In doing that, Defendants forced
Plaintiffs to choose between their First
Amendment rights and their liberty interest in
travel. Special Agent Defendants knowingly,
intentionally, and unlawfully retaliated against
Plaintiffs, and continue to retaliate against
Plaintiffs for their exercise of their constitutional
rights to freedom of speech, association, and
religion, in violation of Plaintiffs’ First
Amendment rights under the United States
Constitution.

202.

Agency Defendants, acting in their official
capacity and under color of authority, were and
remain responsible for promulgating,
implementing, maintaining, administering,
supervising, compiling, or correcting the No Fly
List. Agency Defendants are tolerating and
failing to remedy a pattern and practice among
Special Agent Defendants of using the No Fly
List to unlawfully retaliate against Plaintiffs for
the exercise of their constitutionally protected
rights, in violation of the First Amendment to
the United States Constitution.

69a

203.

Upon information and belief, Plaintiffs remain
on the No Fly List. Plaintiffs’ continued
presence on the No Fly List is a result of their
exercise of their First Amendment rights. By
maintaining each Plaintiff’s name on the No Fly
List, Defendants continue to retaliate against
Plaintiffs for the exercise of their First
Amendment rights. Absent injunctive relief,
upon information and belief, Plaintiffs will
continue to suffer from this retaliatory
placement on the No Fly List, and Agency
Defendants will continue to maintain a pattern
and practice that permits Special Agent
Defendants’ use of the No Fly List to retaliate
against Plaintiffs’ exercise of their First
Amendment rights.

204.

Defendants’ unlawful actions are imposing an
immediate and ongoing harm on Plaintiffs and
have caused Plaintiffs deprivation of their
constitutional rights, emotional distress, damage
to their reputation, and material and economic
loss.

70a

SECOND CLAIM FOR RELIEF
Violation of the Religious Freedom
Restoration Act (RFRA)
(Against Defendants FNU Tanzin, Sanya
Garcia, John LNU, Francisco Artousa, John C.
Harley III, Steven LNU, Michael LNU, Gregg
Grossoehmig, Weysan Dun, James C.
Langenberg, John Does #1-6 in their official
and individual capacities)
205.

Plaintiffs Muhammad Tanvir, Jameel Algibhah,
and Naveed Shinwari incorporate by reference
each and every allegation contained in the
paragraphs above.

206.

Plaintiffs are present or have the legal right to be
present in the United States.

207.

Plaintiffs sincerely believe that informing to the
government on innocent people violates their
core religious beliefs, including the proscription
on bearing false witness against one’s neighbor
by engaging in relationships and religious
practices under false pretenses, and by betraying
the trust and confidence of one’s religious
community.

208.

These are fundamental and important tenets of
Plaintiffs’ religious beliefs because of the central
roles that trust, honesty, and good faith play in
their religious communities.

209.

Defendants instructed and pressured Plaintiffs
to infiltrate their religious communities as

71a

government informants, to spy and eavesdrop on
other Muslims’ words and deeds—regardless of
whether these people were suspected of
wrongdoing—and to report their observations to
the FBI.
210.

Defendants forced Plaintiffs into an
impermissible choice between, on the one hand,
obeying their sincerely held religious beliefs and
being subjected to the punishment of placement
or retention on the No Fly List, or, on the other
hand, violating their sincerely held religious
beliefs in order to avoid being placed on the No
Fly List or to secure removal from the No Fly
List.

211.

By forcing Plaintiffs into this impermissible
choice between their sincerely held religious
beliefs and the threat of retaliation and
punishment, Defendants placed a substantial
burden on Plaintiffs’ exercise of their sincerely
held religious beliefs in violation of RFRA, 42
U.S.C. § 2000bb-1(a).

212.

The United States government has no
compelling interest in requiring Plaintiffs to
inform on their religious communities.

213.

Requiring Plaintiffs to inform on their religious
communities is not the least restrictive means of
furthering any compelling governmental
interest.

214.

By attempting to recruit Plaintiffs as
confidential government informants by resorting

72a

to the retaliatory or coercive use of the No Fly
List, the Special Agent Defendants substantially
burdened Plaintiffs’ sincerely held religious
beliefs in violation of RFRA.
215.

Defendants’ unlawful actions are imposing an
immediate and ongoing harm on Plaintiffs and
have caused Plaintiffs emotional distress,
deprivation of their constitutional and statutory
rights, damage to their reputation, and material
and economic loss.
THIRD CLAIM FOR RELIEF
Violation of the Fifth Amendment:
Procedural Due Process
(Against Agency Defendants
in their official capacities)

216.

Plaintiffs Muhammad Tanvir, Jameel Algibhah,
Naveed Shinwari, and Awais Sajjad incorporate
by reference each and every allegation contained
in the paragraphs above.

217.

Plaintiffs are present or have the legal right to be
present in the United States.

218.

Plaintiffs have a liberty interest in travel free
from unreasonable burdens within, to, and from
the United States.

219.

Plaintiffs have a right to be free from being
falsely stigmatized as individuals associated with
“terrorist” activity and from having these
associational falsehoods disseminated widely to

73a

government agencies, airline carriers, and
foreign governments.
220.

Plaintiffs’ placement or continued listing on the
No Fly List has adversely affected their liberty
interest in travel and their right to be free from
false stigmatization by the government.

221.

Defendants, acting in their official capacity and
under color of authority, were and remain
responsible for promulgating, implementing,
maintaining, administering, supervising,
compiling, or correcting the No Fly List.

222.

By failing to articulate and publish a clear
standard and criteria for inclusion on the No Fly
List, to inform Plaintiffs of their placement on
the No Fly List and the bases for being on the No
Fly List, and to provide Plaintiffs with a
meaningful opportunity to challenge their
placement on the No Fly List, Agency
Defendants facilitated the Special Agent
Defendants’ abuse of the No Fly List and
deprived Plaintiffs of protected liberty interests
without affording them due process of law in
violation of the Fifth Amendment to the United
States Constitution.

223.

Defendants will continue to violate Plaintiffs’
rights to due process if Plaintiffs are not afforded
the relief demanded below.

224.

Defendants’ unlawful actions are imposing an
immediate and ongoing harm on Plaintiffs and
have caused Plaintiffs emotional distress,

74a

deprivation of their constitutional rights, damage
to their reputation, and material and economic
loss.
FOURTH CLAIM FOR RELIEF
Unlawful Agency Action in Violation
of the Administrative Procedure Act,
5 U.S.C. §§ 702, 706
(Against Agency Defendants
in their official capacities)
225.

Plaintiffs Muhammad Tanvir, Jameel Algibhah,
Naveed Shinwari, and Awais Sajjad incorporate
by reference each and every allegation contained
in the paragraphs above.

226.

Plaintiffs are present or have the legal right to be
present in the United States.

227.

Defendants’ failure to provide Plaintiffs with
constitutionally adequate notice of the bases for
their placement on the No Fly List and a
meaningful opportunity to challenge their
continued inclusion on the No Fly List is
arbitrary, capricious, an abuse of discretion,
otherwise not in accordance with law, and
contrary to constitutional rights, power,
privilege, or immunity, and should be set aside as
unlawful pursuant to 5 U.S.C. § 706.

228.

Because Plaintiffs do not present, and have
never presented, a threat to aviation safety,
Defendants’ placement and continued inclusion
of Plaintiffs on the No Fly List is arbitrary,

75a

capricious, an abuse of discretion, otherwise not
in accordance with law, and contrary to
constitutional rights, power, privilege, or
immunity, and should be set aside as unlawful
pursuant to 5 U.S.C. § 706(1).
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs respectfully request judgment
against Defendants as follows:
1.

Declaring that the policies, practices, acts, and
omissions of Defendants described here are
unlawful and violate Plaintiffs’ rights under the
Constitution of the United States, the Religious
Freedom Restoration Act, and the
Administrative Procedure Act;

2.

Ordering Defendants to remove Plaintiffs’ names
from the No Fly List, and to provide Plaintiffs
with notice that their names have been removed;

3.

Enjoining Defendants and their agents,
employees, successors, and all others acting in
concert with them, from subjecting Plaintiffs to
the unconstitutional and unlawful practices
described in this complaint;

4.

Ordering Defendants sued in their official
capacity to provide a constitutionally adequate
mechanism affording Plaintiffs with meaningful
notice of the standards for inclusion on the No
Fly List; meaningful notice of their placement on
the No Fly List and of the grounds for their
inclusion on the No Fly List, and a meaningful

76a

opportunity to contest their placement on the No
Fly List before a neutral decision-maker;
5.

Requiring the promulgation of guidelines
prohibiting the abuse of the No Fly List for
purposes other than the promotion of aviation
safety, including for the unlawful purpose of
retaliating against or coercively pressuring
individuals to become informants;

6.

Awarding Plaintiffs compensatory and punitive
damages;

7.

Awarding Plaintiffs’ counsel reasonable
attorneys’ fees and litigation costs, including but
not limited to fees, costs, and disbursements
pursuant to 28 U.S.C. § 2412; and

8.

Granting such other and further relief as the
Court deems just and proper.

77a

Dated:

April 22, 2014

Respectfully submitted,
/s/ Ramzi Kassem
Ramzi Kassem
Supervising Attorney
Diala Shamas
Staff Attorney
Nasrin Moznu
Versely Rosales
Law Student Interns
CLEAR project
Main Street Legal Services, Inc.
City University of New York School of Law
2 Court Square
Long Island City, NY 11101
(718) 340-4558
ramzi.kassem@law.cuny.edu
/s/ Robert N. Shwartz
Debevoise & Plimpton LLP
919 Third Avenue
New York, NY 10022
Robert N. Shwartz
Jennifer R. Cowan
rnshwartz@debevoise.com
jrcowan@debevoise.com

78a

/s/ Shayana Kadidal
Shayana Kadidal
Susan Hu
Baher Azmy
Omar A. Farah
Center for Constitutional Rights
666 Broadway, 7th Floor
New York, NY 10012
(212) 614-6491
kadidal@ccrjustice.org
shu@ccrjustice.org
bazmy@ccrjustice.org
ofarah@ccrjustice.org
Attorneys for Plaintiffs

